<html>
<title> - ATTACKS ON U.S. DIPLOMATS IN CUBA: RESPONSE AND OVERSIGHT</title>
<body><pre>[Senate Hearing 115-783]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-783

                   ATTACKS ON U.S. DIPLOMATS IN CUBA: 
                         RESPONSE AND OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JANUARY 9, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-253 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey

                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



              SUBCOMMITTEE ON WESTERN HEMISPHERE,        
       TRANSNATIONAL CRIME, CIVILIAN SECURITY, DEMOCRACY,        
            HUMAN RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia





                              (ii)        

                          C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     2
Palmieri, Hon. Francisco L., Acting Assistant Secretary, Bureau 
  of Western Hemisphere Affairs, United States Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................     6
Brown, Todd J. Diplomatic Security Assistant Director, 
  International Programs, United States Department of State, 
  Washington, DC.................................................     7
    Prepared statement...........................................     8
Rosenfarb, Charles, M.D., Medical Director, Bureau of Medical 
  Services, United States Department of State, Washington, DC....     9
    Prepared statement...........................................    10

              Additional Material Submitted for the Record

Responses of Hon. Francisco L. Palmieri to Questions Submitted by 
  Senator Marco Rubio............................................    31
Responses of Hon. Francisco L. Palmieri to Questions Submitted by 
  Senator Robert Menendez........................................    33
Responses of Mr. Todd J. Brown to Questions Submitted by Senator 
  Robert Menendez................................................    34
Responses of Dr. Charles Rosenfarb to Questions Submitted by 
  Senator Robert Menendez........................................    35
Responses of Hon. Francisco L. Palmieri to Questions Submitted by 
  Senator Jeff Flake.............................................    36
Responses of Mr. Todd J. Brown to Questions Submitted by Senator 
  Jeff Flake.....................................................    40
Responses of Dr. Charles Rosenfarb to Questions Submitted by 
  Senator Jeff Flake.............................................    41

                             (iii)        

 
       ATTACKS ON U.S. DIPLOMATS IN CUBA: RESPONSE AND OVERSIGHT

                              ----------                              


                        TUESDAY, JANUARY 9, 2018

                               U.S. Senate,
           Subcommittee on the Western Hemisphere, 
Transnational Crime, Civilian Security, Democracy, 
            Human Rights and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [Presiding], Johnson, Flake, 
Gardner, Menendez, Udall, Shaheen, and Kaine.
    Also present: Senators Barrasso and Markey.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. This hearing of the Subcommittee on the 
Western Hemisphere, Transnational Crimes, Civilian Security, 
Democracy, Human Rights and Global Women's Issues is going to 
come to order. And the title of this hearing is ``Attacks on 
U.S. Diplomats in Cuba: Response and Oversight.''
    We have one government panel testifying today with the 
following three witnesses who are here, and we are grateful for 
you joining us here today, on behalf of the executive branch: 
Mr. Francisco L. Palmieri, who is the acting assistant 
secretary of state for the Bureau of Western Hemisphere 
Affairs, Mr. Todd J. Brown, diplomatic security assistant 
director of International Programs at the Department of State, 
and Dr. Charles Rosenfarb, who is the medical director of the 
Bureau of Medical Services for the Department of State. Thank 
you all again for being here on this important topic.
    There are two goals to the hearing today. The first is to 
establish the facts of what has occurred, and the second is to 
conduct oversight over the conduct and the activities of the 
United States State Department.
    Here are the facts as will be testified to today by our 
panel. In late 2016, staff at the United States embassy in 
Havana began complaining of strange noises, and among the 
descriptions that they complained of, high-pitched beam of 
sound, incapacitating sound, baffling sensation akin to driving 
with windows partially open in a car, or just intense pressure 
in one ear. At the time of this report, the post's leadership 
and the supporting office here in Washington, DC viewed this 
activity as harassment from forces hostile to the United States 
or to U.S. presence in Cuba.
    Later, there was information gathered from additional 
individuals, including some of these, which suggested that the 
events that led to these complaints actually began as early as 
November of 2016. The initial events that were reported 
occurred at diplomatic residences, but later these events 
occurred at hotels.
    Individuals first visited the medical unit at the embassy 
in December of 2016 and January of 2017. From February through 
April of 2017, there was an evaluation conducted of 80 members 
of the embassy community. Sixteen of these were identified with 
symptoms and medically verifiable clinical findings of some 
combination similar to what you would see in patients that 
``have had a mild traumatic brain injury or concussion.''
    In early July, the Bureau of Medical Services at the State 
Department convened a panel of academic experts to review case 
histories and the test results up to that point, and they 
arrived at a consensus. And the consensus is, and I quote, 
``The patterns of injuries were most likely related to trauma 
from a non-natural source.'' Later in August of 2017, the Brain 
Injury Center at the University of Pennsylvania reevaluated 
embassy employees that were reporting symptoms, additional 
individuals, and incidents prior to April 2014 were added to 
the list of confirmed cases. Subsequently, two additional 
individuals reported exposure in mid-August of last year, and 
those cases were medically confirmed as well, bringing the 
total number of cases to 24.
    While the symptoms may vary, all of the medically-confirmed 
cases, all 24 of them, have described some combination of the 
following symptoms: sharp ear pain, dull headaches, ringing in 
one ear, vertigo, visual focusing issues, disorientation, 
nausea, and extreme fatigue. As we said earlier, the timeline 
of the reported incidents are as follows. The initial wave that 
were reported in December may have begun as early as November 
of 2016, and they occurred through late March of 2017. From 
March of 2017 through late April of 2017, there was a sporadic 
period of reported incidents, then they stopped, and then two 
additional reports happened in close proximity in August of 
last year. They were medically confirmed in September.
    These are the facts that will be testified to today by our 
panel, and with that, I turn to the ranking member.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, and I appreciate 
that we are starting the new year with a much-needed hearing on 
the brazen attacks on our diplomats in Cuba, and I would ask 
that my full statement be included in the record.
    Senator Rubio. Without objection.
    Senator Menendez. It is unfortunate that since the news of 
these bizarre and vicious attacks broke late last summer, we 
have not seen more public outcry against the Cuban government 
for whatever scope of ownership it has over these attacks, or 
more accountability for the health and wellbeing of our 
diplomats, some of whom continue to suffer lingering health 
conditions from these attacks. The Castro regime has proven 
time and time again it is not a responsible actor in the 
community of nations. The regime cannot be counted upon to 
uphold its international commitments or responsibilities, and 
most certainly the regime has no regard for individual human 
rights, security, or dignity.
    The Cuban government may or may not at the end of the day 
be directly responsible for attacking our diplomats. But as 
someone who has personally witnessed the modus operandi of the 
Cuban government, it is unfathomable that the Castro regime, 
and the intelligence services specifically, were not aware of 
these attacks. If senior Cuban officials did not directly order 
these attacks, they must have been aware or given tacit 
approval to foreign agents to operate in Cuba. The scope of the 
attacks is too specific. So, I hope to hear some more sound 
explanations from our witnesses today.
    Now, our own diplomats have borne the heavy burden of a 
simple and changeable truth, and that is that being in a 
foreign location in terms of your duty runs risk. And in this 
particular case, no amount of placating, pandering, or 
diplomatic overtures is going to change that. The Cuban 
government has tried to undermine their dangerous and 
irresponsible behavior by undermining the validity of the 
claims of our diplomats. Why would a regime that has 
demonstrated its ability to intimidate, oppress, and harm its 
own citizens give credence to our concerns about the wellbeing 
of Americans?
    They accuse the United States of fabricating the attacks 
because we have not released the names or diagnoses of the 
affected people. Of course the Castro regime does not 
fundamentally understand that in a democratic and free country, 
citizens have a right to privacy, and to a government that 
would prioritize their privacy and health over using them as 
political tools.
    And finally, turning to our witnesses, you cannot be 
accountable for the behavior of the Cuban government or those 
who were responsible for this. But you are responsible both for 
the appropriate diplomatic response and the health and safety 
of our diplomats. And from what I can see, the actions the 
Department has taken on both counts are simply insufficient and 
unacceptable.
    Despite much-vaunted rhetoric from the President about 
rolling back ill-conceived policy changes, the reality is that 
the Cuban government continues to enjoy many of the benefits it 
received. While the administration may champion its new 
regulations prohibiting transactions that could benefit the 
Cuban government, military, intelligence complex, it 
grandfathered in all contracts that began during the last 
administration. Furthermore, because the administration took so 
long to actually announce these guidelines, major companies 
were able to finalize deals in the months between the 
administration's announcement of these policies and their 
implementation.
    At the enforcement level, the Office of Foreign Assets 
Controls remains understaffed with no indication that personnel 
will be hired. At the State Department, the President has not 
even nominated an assistant secretary for the Western 
Hemisphere Affairs. Failing to put critical senior staff in 
place at the appropriate agencies severely undermines the 
United States' ability to project our interests and to protect 
our citizens abroad.
    Accordingly, the administration and the Department's 
reaction to the Cuban government, completely abrogating its 
obligations under the Vienna Convention to protect our 
diplomats, is laughable. The fact that somehow the Cuban 
government has managed to paint a narrative that there were no 
attacks at all is pretty outrageous. Expelling a handful of 
diplomats to achieve parity with the number of diplomats who 
had to be removed from Havana for safety is hardly a bold 
diplomatic move. When new Treasury guidelines were finally 
announced, the administration stressed they were not in 
response to the attack on personnel.
    And then turning to the impacted Foreign Service officers 
themselves. I appreciate the overview that has been provided, 
but the truth is from the accounts we have heard, the 
Department's response was simply bureaucratic, inadequate, and 
troubling. I will have a number of questions later, but let me 
start by saying the stories we heard are shocking: the failure 
of leadership at the Department and at post; the sluggish 
reaction to the initial reports of afflicted personnel; the 
aloof response of the medical team at the State Department. 
Silence from diplomatic security to the rest of the Department 
is simply staggering.
    The members of the U.S. Foreign Service made a commitment 
to serving their country overseas. They agreed to spend their 
lives, often taking their families with them, in pursuit of 
promoting American interests and helping Americans abroad. Some 
serve in combat zones, large embassies and small, and sometimes 
on communist islands.
    According to accounts from those who suffered directly, 
when diplomats first reported symptoms to the appropriate 
people at post, they were rebuffed. It is also our 
understanding that upon finally accepting that the employees 
were suffering life-altering health consequences, the 
Department took months to arrange for the appropriate care. It 
was almost a year before the Department put the embassy on 
ordered departure status, and only after reports surfaced in 
the media.
    Alarmingly, it is our understanding the Department did not 
even warn diplomats going to Cuba for permanent or temporary 
assignments about the risks to their health and the health of 
their families. As their colleagues were evacuated from Cuba, 
Department leadership failed to inform the rest of the 
Department, including those being sent to serve in the place of 
those being evacuated. Those who have been suffering physically 
also have remaining questions about whether they will receive 
appropriate care for the rest of their careers and their lives.
    This lack of leadership and responsibility is shocking and 
unacceptable. I sincerely hope this panel can provide us much-
needed answers to a myriad of pressing questions. The Cuban 
government must be held accountable for its failure to uphold 
international commitments and failure to protect American 
diplomats. The Department must be held accountable for 
executing the appropriate policies and response, and for 
ensuring the safety, security, and health of the men and women 
of the Foreign Service.
    With that, Mr. Chairman, I look forward to the hearing.
    Senator Rubio. Thank you, and we will begin with our 
witnesses. Mr. Palmieri, welcome to the committee.

   STATEMENT OF HON. FRANCISCO L. PALMIERI, ACTING ASSISTANT 
SECRETARY, BUREAU OF WESTERN HEMISPHERE AFFAIRS, UNITED STATES 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Palmieri. Chairman Rubio, Ranking Member Menendez, and 
distinguished members of the Committee, thank you for the 
opportunity to speak about the attacks against U.S. diplomats 
in Cuba and the Department of State's efforts in response. At 
the outset, I want to thank you for your concern for the safety 
and security of our diplomatic personnel in Havana. As you 
know, that is Secretary Tillerson's top priority. It is mine as 
well.
    I am pleased to be here today with my colleagues from the 
Bureau of Diplomatic Security and the Bureau of Medical 
Services, with whom the Bureau of Western Hemisphere Affairs 
has worked closely on this complex issue.
    I would also like to emphasize up front that the 
investigation into these health attacks is ongoing. We have the 
best experts in the government and the private sector working 
to help us understand it. At every step in our response to 
these events, we have worked closely with our medical and 
technical experts in evaluating health conditions and the 
nature of the attacks.
    I will walk you through a general timeline, which will 
describe our diplomatic engagement with the Cubans on this 
issue, and review many of the actions we have taken to date. 
Then, I will defer to my colleagues to address the security and 
medical issues.
    In late 2016, some members of our diplomatic community 
serving at U.S. Embassy Havana complained about hearing strange 
noises and a variety of unexplained physical symptoms. As the 
Department investigated, we began to see signs suggesting that 
these events, initially in diplomatic residences and later at 
hotels, may have begun as early as November 2016. As soon as we 
identified a pattern connecting these unusual events with 
certain health symptoms, U.S. officials approached the Cuban 
government in mid-February to demand it meet its obligations 
under the Vienna Convention to protect our personnel. The 
Cubans denied involvement, offered their cooperation, and 
opened their own investigation.
    Since then, we have engaged the Cubans more than 20 times 
from the working level to the highest level of the Cuban 
government, both here in Washington and in Havana. In addition 
to our diplomatic efforts, we prioritized the medical care of 
our personnel. Dr. Rosenfarb will provide you with additional 
details.
    Separately, we launched a government-wide effort to find 
the cause and culprits behind these attacks. Apart from the 
investigation, we have met with U.S. interagency partners more 
than a dozen times to discuss and refine our response to these 
attacks.
    The attacks initially appeared to occur in clusters, but 
starting in late March, sporadic attacks continued until late 
April and then seemed to stop. Beginning in mid-April, we 
allowed anyone serving at Embassy Havana who did not feel safe 
at post to return to the United States. We also expelled two 
Cuban diplomats in May in order to underscore the Cuban 
government's responsibility to protect our personnel. After a 
period without any attacks, there were two additional attacks 
reported in close proximity in late August, which were 
medically confirmed in September. Based on the resumption of 
these attacks, Secretary Tillerson ordered the departure of 
non-emergency personnel from post on September 29th. The 
Secretary assessed this was the only way to significantly 
reduce the risk to our diplomats and their families.
    As a follow-on to the ordered departure decision, we 
expelled 15 more Cuban diplomats in October to ensure equity in 
the impact on our respective operations and to underscore to 
Cuba its obligation to stop the attacks. These decisions, both 
to draw down our personnel at Embassy Havana and to expel Cuban 
diplomats, did not signal a change from President Trump's new 
policy.
    Prior to the Secretary's decision to institute ordered 
departure, our Embassy held 17 town hall meetings with American 
staff. Since the return of U.S. diplomats to Washington, we 
have held a number of meetings with them. Secretary Tillerson 
personally met with these evacuees to explain his decision to 
institute ordered departure, and we have organized a number of 
meetings to address evacuees' concerns.
    The wellbeing of the 24 confirmed victims, as well as the 
wellbeing of all of our evacuees and those remaining in Havana, 
continues to be our priority as does the ongoing investigation. 
With that, I will turn it to my colleagues to discuss their 
areas of expertise, and then I will be happy to answer your 
questions.
    [The prepared statement of Mr. Palmieri follows:]

              Prepared Statement of Francisco L. Palmieri

    Chairman Rubio, Ranking Member Menendez, and distinguished members 
of the Committee: thank you for the opportunity to speak about the 
attacks against U.S. diplomats in Cuba and the Department of State's 
efforts in response. At the outset, I want to thank you for your 
concern for the safety and security of our diplomatic personnel in 
Havana. As you know, that is Secretary Tillerson's top priority. It is 
mine as well.
    I am pleased to be here today with my colleagues from the Bureau of 
Diplomatic Security and the Bureau of Medical Services, with whom the 
Bureau of Western Hemisphere Affairs has worked closely on this complex 
issue.
    I would also like to emphasize up front that the investigation into 
these health attacks is ongoing. I understand that there are ongoing 
discussions within the committee regarding this matter, and the fact 
is, there is still much we do not know, including who or what is behind 
the injuries to our personnel. We have the best experts in the 
government and the private sector working to help us understand it. At 
every step in our response to these events, we have worked closely with 
our medical and technical experts in evaluating health conditions and 
the nature of the attacks.
    I will walk you through a general timeline, which will describe our 
diplomatic engagement with the Cubans on this issue, and review many of 
the actions we have taken to date. Then, I will defer to my colleagues 
to address the security and medical issues.
    In late 2016, some members of our diplomatic community serving at 
U.S. Embassy Havana complained about hearing strange noises and a 
variety of unexplained physical symptoms. As the Department 
investigated, we began to see signs suggesting that these events--
initially in diplomatic residences, and later, at hotels--may have 
begun as early as November 2016.
    As soon as we identified a pattern connecting these unusual events 
with certain health symptoms, U.S. officials approached the Cuban 
government in mid-February to demand it meet its obligations under the 
Vienna Convention to protect our personnel. The Cubans denied 
involvement, offered their cooperation, and opened their own 
investigation. Since then we have engaged the Cubans more than 20 
times, from the working level to the highest level of the Cuban 
government, both here in Washington and in Havana.
    In addition to our diplomatic efforts, we prioritized the medical 
care of our personnel. State Department and private medical experts 
examined more than 80 post employees and their families, both in the 
United States and in Havana. Dr. Rosenfarb will provide you with 
additional details.
    Separately, we launched a government-wide effort to find the cause 
and culprits behind these attacks. Apart from the investigation, we 
have met with U.S. interagency partners more than a dozen times to 
discuss and refine our response to these attacks.
    The attacks initially appeared to occur in clusters, but starting 
in late March, sporadic attacks continued until late April and then 
seemed to stop. Beginning in mid-April, we allowed anyone serving at 
Embassy Havana who did not feel safe at post to return to the United 
States. We also expelled two Cuban diplomats in May in order to 
underscore the Cuban government's responsibility to protect our 
personnel.
    After a period without any attacks, there were two additional 
attacks reported in close proximity in late August, which were 
medically confirmed in September. Based on the resumption of these 
attacks, Secretary Tillerson ordered the departure of non-emergency 
personnel from post on September 29. The Secretary assessed this was 
the only way to significantly reduce the risk to our diplomats and 
their families.
    As a follow-on to the Ordered Departure decision, we expelled 15 
more Cuban diplomats in October to ensure equity in the impact on our 
respective operations and to underscore to Cuba its obligation to stop 
the attacks. These decisions--both to draw down our personnel at 
Embassy Havana and to expel Cuban diplomats--did not signal a change in 
policy.
    Prior to the Secretary's decision to institute Ordered Departure, 
our Embassy held 17 town hall meetings with American staff. Since the 
return of U.S. diplomats to Washington, we have held a number of 
meetings with them. Secretary Tillerson personally met with these 
evacuees to explain his decision to institute Ordered Departure, and we 
have organized a number of meetings to address evacuees' concerns. The 
well-being of the 24 confirmed victims, as well as the well-being of 
all of our evacuees and those remaining in Havana, continues to be our 
priority, as does the ongoing investigation.
    With that, I will turn it to my colleagues to discuss their areas 
of expertise. Then I will be happy to answer your questions.

    Senator Rubio. Thank you, Mr. Palmieri. Mr. Brown.

   STATEMENT OF TODD J. BROWN, DIPLOMATIC SECURITY ASSISTANT 
 DIRECTOR, INTERNATIONAL PROGRAMS, UNITED STATES DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Brown. Good morning, Chairman Rubio and other 
distinguished members of the Committee. Thank you for your 
invitation to appear today to discuss the health attacks 
involving U.S. diplomatic personnel and their families in 
Havana. Along with my colleagues, I share your concerns 
regarding the safety and security of our personnel in Cuba, and 
welcome any discussion that may lead to a better understanding 
of this issue and stronger safeguards for our employees.
    From a security and investigative standpoint, we continue 
to work with Embassy Havana to aggressively counter, mitigate, 
and better understand who and what are causing injuries to our 
diplomatic staff. Unfortunately, this remains a perplexing 
case.
    Our regional security officer at Embassy Havana first 
became aware of potential health attacks involving embassy 
personnel in late December 2016. In the early stages of trying 
to understand what may be occurring, post leadership and 
supporting offices in Washington believed it was likely a form 
of harassment by forces hostile to the United States and our 
presence in Cuba. As more incidents were reported in early 
2017, and greater awareness of the seriousness of symptoms 
became known, our level of concern and mitigation efforts rose 
exponentially.
    After senior-level meetings with Cuban officials in 
February outlining Cuba's responsibility to protect diplomats 
under the Vienna Convention, the regional security officer 
received confirmation from Cuban counterparts that the Cuban 
government was conducting its own investigation into the 
matter. Senior U.S. officials on Embassy Havana's Emergency 
Action Committee met frequently as part of our ongoing attempt 
to better understand the nature of the apparent attack and 
protect staff. Among other things, the embassy deployed 
recording devices in staff residences in an effort to better 
identify or capture the possible source behind the threat, as 
many victims had associated the attacks with an acoustic event.
    After further investigative attempts and expert analysis 
failed to identify the cause or perpetrator, the Federal Bureau 
of Investigation opened a case in early May. An FBI team has 
since visited Havana several times and met with Cuban 
officials. The FBI's investigation has interviewed victims and 
conducted surveys of the residences and hotel rooms. However, 
the investigation remains ongoing, and we would refer all 
specific questions concerning the investigation to the FBI.
    Thank you. I will be glad to answer any questions you may 
have.
    [The prepared statement of Mr. Brown follows:]

                  Prepared Statement of Todd J. Brown

    Good morning Chairman Rubio, Ranking Member Menendez, and other 
distinguished members of the Committee.
    Thank you for your invitation to appear today to discuss the health 
attacks involving U.S. diplomatic personnel and their families in 
Havana. Along with my colleagues, I share your concerns regarding the 
safety and security of our personnel in Cuba, and welcome any 
discussion that may lead to a better understanding of this issue and 
stronger safeguards for our employees.
    From a security and investigative standpoint, we continue to work 
with Embassy Havana to aggressively counter, mitigate, and better 
understand who and what are causing injuries to our diplomatic staff. 
Unfortunately, this remains a perplexing case.
    Our Regional Security Officer at Embassy Havana first became aware 
of potential health attacks involving Embassy personnel in late 
December 2016. In the early stages of trying to understand what may 
have been occurring, Post leadership and supporting offices in 
Washington believed it was likely a form of harassment by forces 
hostile to the United States and our presence in Cuba.
    As more incidents were reported in early 2017 and greater awareness 
of the seriousness of symptoms became known, our level of concern and 
mitigation efforts rose exponentially. After senior level meetings with 
Cuban officials in February outlining Cuba's responsibility to protect 
diplomats under the Vienna Convention, the Regional Security Officer 
received confirmation from Cuban counterparts that the Cuban government 
was conducting its own investigation into the matter.
    Senior U.S. officials on Embassy Havana's Emergency Action 
Committee met frequently as part of our ongoing attempt to better 
understand the nature of the apparent attack and protect staff. Among 
other things, the Embassy deployed recording devices in staff 
residences in an effort to better identify or capture the possible 
source behind the threat, as many victims had associated the attacks 
with an acoustic event.
    After further investigative attempts and expert analysis failed to 
identify the cause or perpetrator, the Federal Bureau of Investigation 
opened a case in early May. An FBI team has since visited Havana 
several times and met with Cuban officials. The FBI's investigation has 
interviewed victims and conducted surveys of the residences and hotel 
rooms. However, the investigation remains ongoing and we would refer 
all specific questions concerning the investigation to the FBI.
    Thank you. I will be glad to answer any questions you may have.

    Senator Rubio. Thank you. Dr. Rosenfarb.

STATEMENT OF CHARLES ROSENFARB, M.D., MEDICAL DIRECTOR, BUREAU 
    OF MEDICAL SERVICES, UNITED STATES DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Dr. Rosenfarb. Good morning. Chairman Rubio, Ranking Member 
Menendez, and distinguished members of the Committee. Thank you 
for the opportunity to testify on the Department's response to 
the recent health attacks in Havana. I will be describing the 
evolution of the medical response and what we currently know 
about the health effects.
    From the individual and public health perspective, managing 
this evolving situation is challenging. Mission personnel 
describe a multitude of symptoms, many of which are not easily 
quantifiable and not easily attributable to a specific cause. 
The sharing of information that occurs in a small, tight-knit 
community has helped identify more affected personnel, but, as 
typically is the case with any community outbreak, also can 
complicate an epidemiological investigation. However, the most 
challenging factor is the lack of certainty about the causative 
agent and, therefore, the precise mechanism of the injuries 
suffered.
    Individuals first visited our medical unit in Embassy 
Havana starting in late December 2016 and January 2017, 
reporting various symptoms including headache, ear pain, 
dizziness, and hearing problems. They associated the onset of 
these symptoms to their exposures with unusual sounds or 
auditory sensations. Various descriptions were given: a high-
pitched beam of sound, an incapacitating sound, a baffling 
sensation akin to driving with the windows partially open in a 
car, or just an intense pressure in one ear.
    Since the symptoms first reported primarily affected 
auditory functions, an otolaryngologist at the University of 
Miami, highly experienced in evaluating acoustic injuries in 
military personnel, was identified to perform additional 
assessments. Between February and April of last year, this 
specialist evaluated 80 members of the Embassy community. Of 
the individuals evaluated in this initial tranche, 16 were 
identified to have symptoms and medically verifiable clinical 
findings of some combination similar to what might be seen in 
patients following a mild traumatic brain injury or concussion.
    In early July, my office convened a panel of academic 
experts to review the case histories and the test results 
gathered to date. Although the assembled group identified that 
some of the symptoms and findings could be caused by other 
things such as viral illnesses, previous head trauma, aging, 
and even stress, the consensus was that the patterns of 
injuries that had so far been noted were most likely related to 
trauma from a non-natural source. In light of the emerging 
clinical parallels to mild traumatic brain injury, the 
nationally-recognized Brain Injury Center at the University of 
Pennsylvania was identified to provide detailed reevaluations 
of employees with prior exposures, and to evaluate embassy 
community members who reported new exposures.
    As a result of further evaluations begun in late August, 
additional individuals with exposures that occurred prior to 
April 24th were added to the list of confirmed cases. Two other 
individuals who reported exposures that occurred in mid-August 
2017 were also medically confirmed as cases, bringing the total 
number of cases to 24.
    I would like to now describe the health effects identified 
so far. While descriptions of the reported auditory sensations 
have varied, all medically confirmed cases have described some 
combination of the following symptoms beginning within minutes 
to hours of their exposure of the event: sharp, localized ear 
pain, dull unilateral headache, tinnitus or ringing in one ear, 
vertigo, visual focusing issues, disorientation, nausea, and 
extreme fatigue. In many of the patients, the acute symptoms 
seemed to resolve within days to weeks, but other health issues 
emerged that were more persistent. These have included: 
cognitive problems, including difficulty with concentration, 
working memory and attention, recurrent headache, high-
frequency unilateral hearing loss, sleep disturbance, and 
imbalance walking. As in the acute phases, the duration and 
severity of these later symptoms have varied widely.
    Defining the prognosis for the confirmed cases is extremely 
difficult since no precise analogue for this possibly novel 
syndrome exists. Some patients remain symptomatic months after 
their exposure. The persistent symptoms have improved to 
varying degrees in all individuals, some after extended 
rehabilitative therapy, some over time without treatment. Ten 
of the 24 patients have returned to either full- or part-time 
work, while others continue to receive treatment with an 
anticipation of return to duty. However, at this time we are 
unable to state whether or not the injuries may result in 
adverse long-term consequences to the individuals' future 
health or functional abilities.
    All government personnel who travel to Havana on official 
duty now receive a detailed medical briefing and are encouraged 
to undergo pre-deployment screening, including baseline 
audiograms and neurocognitive testing. We have formally 
requested assistance from the Centers for Disease Control for 
performing a broader epidemiological analysis and providing 
appropriate medical information to the American public. 
Discussions have also been held with the National Institute of 
Neurological Disorders and Stroke at the National Institutes of 
Health regarding its participation in ongoing medical 
investigations.
    I look forward to your questions.
    [The prepared statement of Dr. Rosenfarb follows:]

                Prepared Statement of Charles Rosenfarb

    Chairman Rubio, Ranking Member Menendez, and Distinguished Members 
of the Committee:
    Thank you for the opportunity to testify on the Department's 
response to the recent health attacks in Havana. I will be describing 
the evolution of the medical response and what we currently know about 
the health effects.
    From the individual and public health perspective, managing this 
evolving situation is challenging. Mission personnel describe a 
multitude of symptoms, many of which are not easily quantifiable and 
not easily attributable to a specific cause. The sharing of information 
that occurs in a small, tight-knit community has helped identify more 
affected personnel, but, as typically is the case with any community 
outbreak, also can complicate an epidemiological investigation.
    However, the most challenging factor is the lack of certainty about 
the causative agent and, therefore, the precise mechanism of the 
injuries suffered.
    Individuals first visited our medical unit in Embassy Havana in 
late December 2016 and January 2017 reporting various symptoms 
including headache, ear pain, dizziness, and hearing problems. They 
associated the onset of these symptoms to their exposures with unusual 
sounds or auditory sensations. Various descriptions were given: ``a 
high pitched beam of sound''; an ``incapacitating sound''; a ``baffling 
sensation'' akin to driving with the windows partially open in a car; 
or just an intense pressure in one ear. Since the symptoms first 
reported primarily affected auditory functions, an otolaryngologist at 
the University of Miami, highly experienced in evaluating acoustic 
injuries in military personnel, was identified to perform additional 
assessments.
    Between February and April of last year, this specialist evaluated 
eighty members of the Embassy community. Of the individuals evaluated 
in this initial tranche, sixteen were identified to have symptoms and 
medically verifiable clinical findings of some combination similar to 
what might be seen in patients following mild traumatic brain injury or 
concussion.
    In early July, my office convened a panel of academic experts to 
review the case histories and the test results gathered to date. 
Although the assembled group identified that some of the symptoms and 
findings could be caused by other things such as viral illnesses, 
previous head trauma, aging, and even stress, the consensus was that 
the patterns of injuries that had so far been noted were most likely 
related to trauma from a non-natural source.
    In light of the emerging clinical parallels to mild traumatic brain 
injury, the nationally-recognized brain injury center at the University 
of Pennsylvania was identified to provide detailed reevaluations of 
employees with prior exposures and to evaluate Embassy community 
members who reported new exposures. As a result of further evaluations 
begun in late August, additional individuals with exposures that 
occurred prior to April 24 were added to the list of confirmed cases. 
Two other individuals who reported exposures that occurred in mid-
August 2017 were also medically confirmed as cases, bringing the total 
number of cases to 24.
    I would like to now describe the health effects identified so far. 
While the descriptions of the reported auditory sensations have varied, 
all medically-confirmed cases have described some combination of the 
following symptoms beginning within minutes to hours of the event: 
sharp, localized ear pain; dull unilateral headache; tinnitus in one 
ear; vertigo; visual focusing issues; disorientation; nausea; and 
extreme fatigue. In many of the patients, the acute symptoms resolved 
within days to weeks, but other health issues emerged that were more 
persistent. These have included: cognitive problems, including 
difficulty with concentration, working memory, and attention; recurrent 
headache; high-frequency unilateral hearing loss; sleep disturbance; 
and imbalance walking. As in the acute phase, the duration and severity 
of these later symptoms have varied widely.
    Defining the prognosis for the confirmed cases is extremely 
difficult since no precise analogue for this possibly novel syndrome 
exists. Some patients remain symptomatic months after their exposures. 
The persistent symptoms have improved to varying degrees in all 
individuals, some after extended rehabilitative therapy, some over time 
without treatment. Ten of the 24 patients have returned to either full 
or part-time work, while others continue to receive treatment with an 
anticipation of return to duty. However, at this time we are unable to 
state whether or not the injuries may result in adverse long-term 
consequences to the individuals' future health or functional abilities.
    All government personnel who travel to Havana on official duty now 
receive a detailed medical briefing and are encouraged to undergo pre-
deployment screening including baseline audiograms and neurocognitive 
testing. We have formally requested assistance from the Centers for 
Disease Control for performing a broader epidemiological analysis and 
providing appropriate medical information to the American public. 
Discussions have also been held with the National Institute of 
Neurological Disorders and Stroke at the National Institutes of Health 
regarding its participation in the ongoing medical investigation.
    I look forward to your questions.

    Senator Rubio. Thank you. Dr. Rosenfarb, I will start with 
you. Is it fair to say that by May 1st--you said you saw the 
confirmed cases, February through April of 2017. Is it fair to 
say by May 1st or early May, we were aware that at least 16 
U.S. government employees and/or dependents had suffered a 
serious injury while working in Havana for the U.S. government?
    Dr. Rosenfarb. Senator, it is fair to say that we were 
aware that 16 people had suffered some type of injury. As I 
said----
    Senator Rubio. Were they--was it serious?
    Dr. Rosenfarb. In some individuals, the symptoms were more 
serious than others.
    Senator Rubio. Well----
    Dr. Rosenfarb. There was a whole spectrum of symptoms that 
we saw and findings----
    Senator Rubio. Let me ask you this. Was there a single--of 
the 16, at least one U.S. government employee working in Havana 
suffered serious injury? Is it fair to say at least one 
suffered serious injury?
    Dr. Rosenfarb. I would say many suffered serious injury. 
Anything----
    Senator Rubio. Let me tell you why I asked that, because, 
Mr. Palmieri, according to the law, in any case of serious 
injury related to a U.S. government mission abroad, the 
Secretary of State shall convene an accountability review 
board. The law allows--that has to happen within 60 days of the 
occurrence of an incident, and it allows for a 60-day delay if 
the Secretary determines that an additional period is necessary 
for the convening of the board. So, by my calculation, by early 
May, we knew that at least one, if not several, as Dr. 
Rosenfarb has testified, suffered serious injury. By early 
July, on the 60-day period, and certainly by early September, 
the whole 120-day period, an accountability review board should 
have been set up.
    I got a letter on November 6th saying that there was still 
not an accountability review board, that the Secretary had 
decided to delay for 60 days in order to determine whether one 
was even necessary. It says, ``Allow additional time for the 
investigation to yield more information to better inform the 
decision of whether to convene an ARB.'' Has an accountability 
review board been set up as of this date, and why was it not 
set up, as according to law, within the 120-day period?
    Mr. Palmieri. Sir, thank you for that question. The 
Secretary has made a decision to convene an accountability 
review board. There will be a congressional notification sent 
shortly.
    Senator Rubio. Why was it not done within 120 days of May 
1st when we knew that there was serious injury?
    Mr. Palmieri. Throughout this process, there has been a lot 
of information that we knew or at times was then later 
contradicted. Throughout this process, we have not been able to 
identify who the perpetrator of such attack was and what the 
means of that attack was. It was only until late August when 
there was another round of attacks that it became apparent to 
us that we should begin the process of looking at an 
accountability review board.
    Senator Rubio. Well, that is not what the law reads. It 
says, ``In any case of serious injury, loss of life,'' et 
cetera, et cetera, ``related to a United States government 
mission abroad.'' It does not say that you need to know who did 
it. In fact, that is one of the reasons for an accountability 
review board. The bottom line is the State Department did not 
follow the law in setting one up within the 120-day period in 
my opinion, and I believe in the opinion of others, given the 
fact that by early May we knew serious injury had occurred to 
U.S. personnel and their dependents related to their service in 
a government mission abroad. It was not one person, it was 
several people, as has been testified here.
    Now, we first heard of the complaints in late 2016. And, 
Mr. Brown, you testified the conclusion was that this was 
forces hostile to the United States and/or hostile to our 
presence in Cuba. Is that correct?
    Mr. Brown. That is correct. Initially, we felt that it was 
a form of harassment, and that was attributed to the 
government.
    Senator Rubio. Mr. Palmieri, do you know when Secretary 
Kerry was made aware? This was a State Department conclusion 
that there was harassment, correct?
    Mr. Brown. Yes, sir, that was the early opinion of the 
security professionals who looked at it, that it was likely a 
form of harassment.
    Senator Rubio. Okay. When was Secretary Kerry made aware? 
Do you know?
    Mr. Palmieri. I do not know. I will have to check the 
record, Senator.
    Senator Rubio. Do you know if President Obama was ever made 
aware?
    Mr. Palmieri. I know that as a regular matter, we would 
have apprised the National Security Council at some point after 
the late December information became apparent.
    Senator Rubio. What about Secretary Tillerson? When was 
he--when was he first made aware?
    Mr. Palmieri. I would believe that would have been in late 
February, sir.
    Senator Rubio. Okay. Do you know if the Trump Transition 
Team was made aware during the transition period?
    Mr. Palmieri. I did not have contact with them on this 
issue. I am not aware if anyone else did, sir.
    Senator Rubio. Now, in December 2014, President Obama 
changed policy towards Cuba. We set up the embassy. We had to 
expand personnel, did we not, in Havana? We added personnel to 
expand the mission.
    Mr. Palmieri. I would have to go back to check the record, 
but, yes, that probably makes sense.
    Senator Rubio. And we also had to secure housing, and we 
provided--so we had to secure housing for the additional 
mission in Havana.
    Mr. Palmieri. That would be normal practice, yes, Senator.
    Senator Rubio. And in Cuba, we would have to provide the 
Cuban government the list of all of the U.S. government 
employees that were moving to Havana to work at the mission. 
That is just a matter--a matter of course, correct?
    Mr. Palmieri. We would have solicited visas for the 
additional personnel, yes.
    Senator Rubio. And the residences in Cuba, since there is 
no real private property, all of these residents would have 
been owned by the Cuban government.
    Mr. Palmieri. That is my understanding, too, sir.
    Senator Rubio. The hotels where these attacks happened were 
owned by the Cuban government. That is for sure.
    Mr. Palmieri. That is correct.
    Senator Rubio. Okay. What security measures did we take, 
Mr. Brown, in this expansion on these residences?
    Mr. Brown. Senator, I mean, to talk a little bit about 
residential security, I think historically from a crime 
perspective, political violence perspective, there were--there 
were not features sort of related to that. Our concern, and I 
believe the Cuban government selected--was aware of which 
housing our personnel would go into. Our housing profile is 
fairly compact. There are not specific security measures in a--
in a high CI, counterintelligence type environment, so there 
would not have been any other physical security in relation to 
the residences that were in place other than the location. And 
certainly based on a history in Cuba, we did not have--beyond 
the harassment element, we did not have, you know, a high 
crime--high crime statistics or anything related to political 
violence.
    So, there would not have been any residential measures 
taken above and beyond what was already in place.
    Senator Rubio. My final question is for you, Mr. Brown, and 
you, Dr. Rosenfarb. Based on what we know and, more 
importantly, what we do not know, can you today guarantee the 
safety of any personnel in Havana currently stationed there or 
about to be deployed to Havana? Do we know what they can do to 
protect themselves from these sorts of injuries? Can we 
guarantee that today if we send someone there, they are safe 
from these injuries?
    Mr. Brown. Senator, I do not think we can say categorically 
that we can guarantee that they would be safe from this. 
Certainly, we have--not knowing what is causing it, or who is 
behind it, or how it is being done gives us very little in 
terms of mitigation. What we have done is address sort of being 
sure that our community in Havana is well aware of what has 
happened, to provide advice on how to respond to that, to have 
teams in place that then can respond, and how to report those 
types of incidents.
    So, we have done a lot of work in terms of elevating the 
knowledge of the personnel that are----
    Senator Rubio. I guess to cut to the chase, Mr. Brown, if I 
were being deployed to Havana today to work in the embassy and 
I asked you, what can I do to protect myself from the sort of 
thing that has happened, you do not know what I can do to 
protect myself since we do not know what it is they used to 
attack them.
    Mr. Brown. That is true, Senator. Our guidance would be in 
the event of something to what has taken place, to react in a 
certain manner. That is a reactive matter, not a mitigation 
measure.
    Senator Rubio. Dr. Rosenfarb, do you have any advice for 
people that are being deployed to Havana, how they can protect 
themselves from this?
    Dr. Rosenfarb. Well, we try and educate those who have to 
go down there for government business and make sure they are 
aware of the risk, and make sure--make sure they are aware of 
what we know about the symptoms that have occurred. As far as 
we know right now, the only mitigation factor is to limit your 
exposure. We inform people that should they hear or feel a 
sensation, to move away as quickly as possible.
    We know from our patients who already have been there that 
the less exposure the better. We also do pre-deployment 
screening now to ascertain hearing, baseline cognitive 
function. So, should they report any concern, we are able to 
measure what they are currently at compared to the previous 
status and get them the health care they need.
    Senator Rubio. The ranking member.
    Senator Menendez. Thank you, Mr. Chairman. Mr. Chairman, 
unfortunately I am going to have to go the White House for an 
immigration meeting, so I am going to have a series of 
questions for the record. I do have some questions here now, 
but I was looking forward to a second round, so I hope those 
questions will be answered.
    Senator Menendez. First, listening to this set of answers, 
the times in which we used to have children put their head 
underneath their desk during an air raid drill for a nuclear 
attack comes to mind. Ridiculous. Move away from a sound that 
you are hearing. It is pretty amazing to me.
    Let me ask, the Democratic offices of this committee have 
requested a classified briefing on this issue in early 
December. To date that briefing has not taken place. Do you 
commit to providing a classified briefing for this committee?
    Mr. Palmieri. Absolutely, Senator.
    Senator Menendez. And given the nature of the hearing and 
the fact that so much is tied to classified information, do you 
commit to accepting and responding to classified questions for 
the record?
    Mr. Palmieri. Yes, sir.
    Senator Menendez. All right. Now, Mr. Palmieri, would it 
not be fair to say that in Cuba, either it is the regime who 
conducted these attacks, or they have full knowledge of who 
conducted these attacks because the state security apparatus in 
Cuba is one that has every element of Cuban society and life 
fully monitored and engaged. Very difficult to believe that if 
a third country ultimately engaged in these attacks within 
Cuba, that the Cuban intelligence would not know. Is that a 
fair statement?
    Mr. Palmieri. Yes, sir.
    Senator Menendez. All right. So, either it is the Cubans or 
it is someone else. Now, under the possibility that it is 
someone else, and I think the administration has recognized 
that one possible explanation for these attacks on U.S. 
personnel is a third country, possibly in collaboration with 
the Cuban government or at least with its knowledge, or if it 
was not with its knowledge, they know who it is, and they have 
not come forth, as I understand. Is that a fair statement? Has 
the Cuban government suggested who this might be if it is not 
them?
    Mr. Palmieri. No, not that I am aware of.
    Senator Menendez. So, in the theory for a moment that it is 
a third country, in December of 2016, around the same time 
these attacks first started, the Cuban and Russian government 
signed a new defense cooperation agreement, including 
cooperation on a series of new technologies. And I would like 
to introduce two press articles regarding this agreement for 
the record, Mr. Chairman.
    [The information referred to was not available at time of 
print]

    Senator Menendez. Has the State Department raised attacks 
against U.S. personnel in Cuba with the Russian government, for 
example?
    Mr. Palmieri. Sir, I think I would--that is a very good 
question. I think it would be better to address that issue in a 
classified setting.
    Senator Menendez. Okay. So, if I were to go to a list of 
other countries, you are going to give me the same answer.
    Mr. Palmieri. In general, yes, sir.
    Senator Menendez. Yes, you are going to give me the same 
answer.
    Mr. Palmieri. Yes.
    Senator Menendez. All right, so I will look forward to that 
classified moment. Now, let me ask you--let me ask you this. 
You have said that you will not return individuals if, in 
fact--individuals to the post if--unless the Cubans can 
guarantee that these attacks will not continue. Does that not 
indicate that you believe that the government has at least some 
knowledge of control over these attacks?
    Mr. Palmieri. The President and the Secretary have stated 
that they do believe the Cuban government has responsibility in 
this situation.
    Senator Menendez. Dr. Rosenfarb, when was the first time a 
diplomat reported symptoms of an attack?
    Dr. Rosenfarb. The first symptoms were seen--the first 
patients were seen by our health provider in the medical unit 
in Embassy Havana in mid-January.
    Senator Menendez. Mid-January of?
    Dr. Rosenfarb. 2017.
    Senator Menendez. Of 2017. Do we know when the Charge was 
first informed of these attacks?
    Mr. Palmieri. I believe the Charge alerted these attacks at 
the--at the very end of December of 2016.
    Senator Menendez. So, we say that some of these attacks 
took place in May of 2016, right?
    Mr. Palmieri. There was a cluster of attacks that occurred 
between March and mid-April. I do not believe there was an 
attack in May. I would have to go back to the timeline.
    Senator Menendez. Okay. So, if it is March or mid-April of 
2016, and you----
    Mr. Palmieri. I am sorry. Excuse me, Senator. I meant 2017.
    Senator Menendez. 2017, okay. So, let me ask you this. Was 
the Charge informed of the severity of the attacks? Was he 
advised that the effects of the attack could be permanent?
    Mr. Palmieri. He was informed of the attacks in late--in 
late December, sir, of 2016. At that point, I do not believe we 
knew or we had information about the severity or the depth of 
the attacks.
    Senator Menendez. When diplomats reported symptoms to the 
regional security officer and medical team, why did it take so 
long to respond?
    Mr. Brown. Senator, I believe--to try to clarify how--sort 
of how this sort of timeline from an investigative standpoint 
took place, it was December 30th in 2016 when it was first 
brought to the attention of the regional security officer and 
the front office of the embassy. At that time, it was not 
clear, you know, what was taking place, nor were there related 
severe medical symptoms. They just simply did not know.
    And at that point, that is when they thought it might be 
some form of harassment, and the regional security officer did 
note it in a report back to Washington along with other reports 
it was in. So, that is when they first sort of had this notice 
of what was--what was happening. Then there was this long gap 
that nothing new happened.
    So, this--you know, this case is sort of amplified by how 
perplexing and knowledge gaps, but they did seize on this early 
indicator that something odd had happened. And then I believe 
it was late--you know, this was considered a form of harassment 
early on, and then it was not until early February when new 
incidents were reported, there was sort of this moment of we 
have got something bigger happening here.
    Senator Menendez. Why were diplomats who were affected told 
not to share their symptoms or concerns with family members?
    Mr. Brown. I am not aware that that was ever done, sir.
    Senator Menendez. Would you review it because I think if 
you talk to these individuals, they will tell you that they 
were told not to share their symptoms or concerns with family 
members. Let me ask you this. When did you first learn that 
employees were suffering symptoms associated with traumatic 
brain injury?
    Dr. Rosenfarb. We medically evacuated the first patient, I 
think it was February 6th, 2017. And like I testified, over the 
next 2 months, we evacuated 40 more people, but we also had the 
specialist from Miami go to Havana and assess more people. As 
we saw more and more patients and the specialist was able to do 
the evaluations and do the objective assessments, it became--
the pattern of injuries became consistent with what I testified 
as being most likely a version of traumatic brain injury or 
concussion. It was an accumulation of information and findings 
over that 2 months.
    Senator Menendez. Mr. Palmieri, for these employees who 
were or are currently being treated, will the Department 
continue to cover all their medical care?
    Mr. Palmieri. I would refer that question to the Office of 
Medical Services, Senator.
    Senator Menendez. Okay, Dr. Rosenfarb can answer it.
    Dr. Rosenfarb. We are committed to do everything we can 
under existing authorities to provide the care and the--and 
support that our employees need.
    Senator Menendez. Do those existing authorities suggest 
that there are some limitations to the treatment you will give 
these employees?
    Dr. Rosenfarb. We are--there may be some limitations that 
family members over the course--because what happened--people 
who are injured--employees injured in the course of duty would 
be covered by the worker's compensation law. Family members 
would not be.
    Senator Menendez. Well, I would ask you in response to my 
questions to give the committee a full sense of what 
limitations there are. I do not think that when we send a 
diplomat abroad who is attacked by whomever, at the end of the 
day, that their health and wellbeing should be limited in terms 
of our response to them. I think you want to send a global 
message to all of our men and women abroad that if they are 
attacked, they will be taken care of just as we would to any of 
our veterans. And I consider them in this respect a veteran of 
our diplomatic efforts, which are equally as important. So, I 
would like to see what limitations there are, if any, and then 
work with the chairman and others to see if we can respond to 
that.
    I have plenty of other questions, but I will look forward 
to your answers in writing.
    Senator Rubio. Thank you. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. I am not sure who 
to direct this to, but let me first say I do agree with Mr. 
Brown there. This is a pretty perplexing case. Does anybody 
know how many different locations this has been perpetrated at?
    Mr. Brown. Senator, I do not have the exact number of 
locations, but it was--it was several residences. It was no 
official facilities, and there were two hotels, I believe.
    Senator Johnson. Okay. Are you aware of these types of 
symptoms with any other Cuban nationals or people that were not 
associated with the United States diplomatic corps? Any reports 
of something similar to others?
    Mr. Palmieri. Subsequent to the issuance of our travel 
warning on or about October 1st of 2017, there have been 18 
American citizen reports to the Department's Bureau of Consular 
Affairs. That information has been shared with the 
investigators.
    Senator Johnson. Of those--of all the reports, what 
percentage approximately is there an audible type of attack as 
opposed to just starting to feel ill, or dizzy, or experiencing 
vertigo? I mean, is there always associated with it some kind 
of high-pitched sound or something?
    Mr. Palmieri. Senator, you are referring to the attacks 
against the diplomats. We do not have information about the 
attacks on individuals.
    Senator Johnson. Okay, with the diplomats, I mean, how 
many--how often is that? Is it a hundred percent of the time 
there is--they hear something or?
    Dr. Rosenfarb. The vast majority of the 24 cases reported 
hearing or feeling some auditory sensation.
    Senator Johnson. When you say, ``feel auditory sensation,'' 
something you just--feeling a fluttering in your ear or 
something? Like, say, the capitation you hear or capitation 
with the window lowered in your car, that type of thing?
    Dr. Rosenfarb. Right, the descriptions of the sensations 
vary quite a bit. Some feel more like a vibration. Some report 
a loud sound. The descriptions have varied, though.
    Senator Johnson. Have we ever set up any kind of monitoring 
device in any of those residences?
    Mr. Brown. Yes, sir, we have provided off-the-shelf 
recording devices that are geared to record high-frequency 
sounds. We have successfully recorded some sounds and turned 
those over to investigators.
    Senator Johnson. Okay, that is interesting. When you 
recorded those sounds, did people exhibit the symptoms?
    Mr. Brown. I believe that some of those at least were 
associated with individuals who later showed symptoms, but I 
would defer to the doctor also to comment on that.
    Senator Johnson. Dr. Rosenfarb, are you aware of any type 
of technology that would cause this?
    Dr. Rosenfarb. No, I am not.
    Senator Johnson. Again, not do you know exactly what caused 
this, but are you aware of some kind of auditory type of weapon 
that could cause this type of damage?
    Dr. Rosenfarb. No, I am not, sir.
    Senator Johnson. Mr. Palmieri, do you know if the United 
States government is aware of any?
    Mr. Palmieri. No, I do not, sir.
    Senator Johnson. Dr. Rosenfarb, I take Senator Rubio's 
description of the ARB and what is required by law, but as a 
medical doctor, it seems like you hopped on this pretty quick, 
and we had experts come in February 2017, literally within a 
month, month and a half of when embassy personnel were even 
made aware of this. Short of a full-scale ARB, from a medical 
standpoint, is there anything else--any regrets you have in 
terms of things you did not do?
    Dr. Rosenfarb. No, no regrets, sir. I think it is important 
to remember that when I said, ``serious injuries,'' at the time 
the injuries were as serious as any acute injury would be. One 
thing that has not become clear and still not certain is what, 
if any, their long-term consequences would be. Someone can 
suffer serious injury, but may improve completely. At that 
point, you know, they are able to go on and do not have any 
health consequences.
    Each step of the way, we identified where we had 
information gaps. We sought to fill those gaps. We got the best 
care we could find for our personnel, and we made decisions 
based on the information we had at each point of the 
investigation.
    Senator Johnson. So, you can suffer an injury from an 
illness, but at what point do you believe an injury was caused 
by some type of attack, or are you still not certain of that?
    Dr. Rosenfarb. After our discussion with the panel of 
academic experts in July when the panel reviewed other possible 
explanations, each explanation seemed to have holes in it. And 
the panel felt that the one explanation that could probably 
best explain--was most likely to explain it was that there was 
some non-natural incident that had caused the injuries.
    Senator Johnson. Yeah, that was in July 2017.
    Dr. Rosenfarb. Yes.
    Senator Johnson. But my final question, how many embassy 
personnel have requested relocation, or was that just a 
decision made by the State Department to move people or the 
medical corps?
    Mr. Palmieri. There were eight individuals who requested 
departure from Havana before the Secretary's decision that 
moved the post to an ordered departure status where we removed 
all but emergency personnel.
    Senator Johnson. So, were those requests granted?
    Mr. Palmieri. Yeah, anyone who wanted to depart post was 
allowed to depart post.
    Senator Johnson. Okay. Thank you, Mr. Chairman.
    Senator Rubio. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
for testifying today. I think this committee had a classified 
briefing on this issue in October. Mr. Palmieri, you suggested 
that there was information that you could only share in a 
classified briefing. Is there new information that has come to 
light since that classified briefing about what has occurred in 
these instances?
    Mr. Palmieri. I think it would benefit the committee for us 
to come up and do an additional classified briefing. There have 
been developments since the October briefing. I know we have 
tried to keep the committee informed to the best of our 
ability, and there has been--it would be worthwhile, yes, 
Senator.
    Senator Shaheen. There is an AP headline, a story from 
yesterday, which you all may have seen, which says that the FBI 
doubts a sonic attack. And I would just read briefly: ``The FBI 
report,'' which has not been release publicly, ``is the 
clearest sign to date of the U.S. ruling out the sonic weapon 
theory.'' The report says, ``The FBI tested the hypothesis that 
air pressure waves via audible sound, infrasound, or ultrasound 
could be used to clandestinely hurt Americans in Cuba and found 
no evidence.'' Do you believe that this report is accurate that 
was in the AP story?
    Mr. Brown. Senator, perhaps I could comment. It is an FBI 
report, and I would hesitate on the FBI findings at this point.
    Senator Shaheen. Mr. Chairman, did we ask the FBI if they 
would come and testify before this committee about this issue?
    Senator Rubio. We did not. The FBI generally will not 
testify because of jurisdictional issues with Judiciary.
    Senator Shaheen. Is there a way for us to get the 
information from this FBI report in a classified briefing?
    Senator Rubio. There is, and I think that is one of the 
things Senator Menendez was asking about.
    Senator Shaheen. I think that would be very helpful. Mr. 
Brown, how has the Cuban government responded to these attacks, 
and have they been cooperative in the investigations?
    Mr. Brown. Senator, I am not--I am not aware that they have 
been uncooperative. I know that we have had our own 
investigative team that went down in May, and they had no 
difficulties in at least entering the country, and certainly 
working the case in terms of just the U.S. mission. I am also 
unaware that the FBI has encountered any difficulties in terms 
of coming in and out of the country for investigative purposes.
    Beyond that, I do know that the Cuban government said they 
would also conduct a parallel investigation, so to speak. I 
understand that the embassy has noted increased security, Cuban 
security presence in our--in our residential areas purportedly 
in response to this issue, but I honestly do not know if that 
has--is any legitimate attempt on their part to uncover. But it 
has been noted that there is increased security by the Cubans 
in those residential areas.
    Senator Shaheen. Mr. Palmieri, knowing what you know about 
the way the Cuban government operates, do you believe that 
there could have been deliberate attacks on our personnel 
without the Cuban government knowing about it?
    Mr. Palmieri. I find it very difficult to believe that. 
Cuba is a security state. The Cuban government in general has a 
very tight lid on anything and everything that happens in that 
country.
    Senator Shaheen. And have they been more responsive because 
we asked them to remove their embassy personnel? Has that 
produced any change in their behavior?
    Mr. Palmieri. The Cuban government, since we expelled their 
personnel in October, has engaged in a pattern of trying to 
discredit the theories related to these attacks. I do not think 
that is a helpful posture for it to take.
    Senator Shaheen. Have they actually investigated the 
attacks themselves, Mr. Brown?
    Mr. Brown. According to the Cuban authorities, they said 
that they were opening a parallel investigation, but beyond 
that, I am unaware of what they have done or what they have 
uncovered. Perhaps that could be a question posed to FBI 
investigators.
    Senator Shaheen. So, we have not--the State Department has 
not seen the results of any report that they have done.
    Mr. Brown. Not that I am aware of, no.
    Senator Shaheen. Given----
    Mr. Palmieri. Senator, if I could clarify that last point.
    Senator Shaheen. Yeah.
    Mr. Palmieri. We did have a law enforcement dialogue in 
September where they did share with the Department a document 
that they purported to be the results of their preliminary 
investigation into this matter.
    Senator Shaheen. And did it shed any light on or provide 
any information that we did not already have?
    Mr. Brown. I have not seen the report, Senator, but I am 
not aware that any new information surfaced due to a Cuban 
investigation.
    Senator Shaheen. My time is up, but if I could just ask one 
more question, Mr. Chairman. Mr. Palmieri, as someone who has 
watched Cuba for some time, given the change in American policy 
during the Obama administration to resume a diplomatic 
relationship with Cuba, and to begin to resume other commercial 
and other ties with the country, is there any reason to think 
it would be in Cuba's interest to make deliberate attacks 
against our embassy personnel at a time when there was an 
effort to resume ties with the country?
    Mr. Palmieri. I am loath to speculate on Cuban government 
intentions. However, there is a long history and pattern of 
Cuban harassment of U.S. diplomats stationed in Havana. It is 
entirely possible that they could have escalated that pattern 
of harassment and caused these incidents. In whatever case, 
they are responsible for the safety and security of U.S. 
diplomats stationed in Havana under the Vienna Convention.
    Senator Shaheen. Right.
    Mr. Palmieri. And they have failed to live up to that 
responsibility.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    Senator Rubio. Thank you. Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman. I 
obviously care, like you do, very much, and I think all of us 
here, about our personnel overseas, and if they get harmed, and 
making sure that they get adequate medical personnel. And, 
Doctor, you seem to suggest that they get the care, and that 
some of the care they--you were drawing lines. Some may be 
workmen's comp. Others may be that they were not serving in the 
line of duty, something along that line. Of the 24 cases, which 
of those would you say are workmen's comp? Were they off duty? 
Were all of them off duty, or some of them on duty situations 
in the hotel, the two hotels and at the residence?
    Dr. Rosenfarb. All 24 are getting the best care available.
    Senator Udall. And you plan to keep that care, the best 
care available like you are talking about.
    Dr. Rosenfarb. Right. As individuals, they have the option 
to seek any care they want. In terms of a worker's comp issue, 
that--in terms of--that determines how that care is paid for. 
Any U.S. employee working at an embassy, we consider this an 
occupational exposure. Therefore, we are encouraging our 
personnel and employees to make a claim with the Department of 
Labor for worker's compensation. The issue on the compensation 
is it may be won for any eligible family member who might be 
affected because they are not the employee.
    Senator Udall. Yeah, but are you aware of any of these 24 
individuals or additional individuals who are now paying for 
their medical care because the government will no longer 
provide it?
    Dr. Rosenfarb. Right. So, no one is actually paying for 
their medical care right now directly. We have authorities to 
medically evacuate personnel, and to be--we seek reimbursement 
from the medical insurer, the primary medical insurer first. 
But we have committed to providing what we call secondary payer 
benefits to personnel who are affected overseas. We have 
authority to do that for up to a year, potentially longer, 
again, primarily for employees, but we also have benefit--able 
to do that for a period of time for family members as well.
    Senator Udall. Yeah.
    Dr. Rosenfarb. So, there are no out-of-pocket expenses that 
are incurred by any of the employees or family members right 
now.
    Senator Udall. Okay. Now, Senator Shaheen read the recent 
AP story where the FBI concluded that this was not a sonic 
attack and basically ruled that out. As you know, the FBI took 
a number of trips to Cuba. They interviewed down there. They 
were very, very thorough in terms of what they did. And so, 
them coming out with this report, which you cannot comment on, 
would you tell us what your theories are of what happened? They 
have ruled that out. What are your theories of what you think 
happened?
    Mr. Brown. There has been--you know, when this thing has 
been looked at an investigative standpoint, I do not think that 
solely the acoustic element has been looked at, you know. From 
the very beginning, even going back into late February when we 
sort of had that moment of a medical element associated with 
this, that it was shared with the interagency community of what 
possibly could be, you know, happening in Havana. And though 
these events were associated with an acoustic element, they 
were still looking at other possibilities.
    And so, I am not familiar with the FBI. I know this report 
was not put out publicly. If----
    Senator Udall. But what are your--they have ruled that out. 
Have you ruled it out, or do you still have----
    Mr. Brown. Well, I do not know that I would rule it out 
entirely. The acoustic element could be used as a masking, you 
know, piece of it.
    Senator Udall. So, on what basis then are you claiming that 
it is acoustic?
    Mr. Brown. I am not claiming that it is acoustic. I just 
know that there has been an acoustic element associated with 
the sensations and the feelings. If the FBI has determined that 
that is not the case, which I have not seen this report and I 
do not think it has been released publicly, that does not mean 
that an acoustic element could not be part of another type of, 
you know, style of attack here. And I do know that other types 
of attacks are being considered in connection with this.
    Senator Udall. And what are those?
    Mr. Brown. I think there is viral. There is ultrasound. You 
know, there is a range of things that the technical experts are 
looking at as could this be a possibility.
    Senator Udall. So, when you say ``viral,'' you are talking 
about somebody intentionally implanting a virus.
    Mr. Brown. That would not be ruled out. That could be a 
possibility.
    Senator Udall. And then other--ultrasound you are saying?
    Dr. Rosenfarb. Yeah, I have seen sort of the range of what 
possibly could be taking place beyond sort of the acoustic 
element, and those are some of the things that have been 
mentioned to be looked at. And in some cases, they have been 
ruled out from experts. They do not know how that could be done 
in that fashion, so.
    Senator Udall. I see my time is up, Mr. Chairman. I would 
like a second round, but----
    Senator Rubio. Go ahead now.
    Senator Udall. Okay, no, that is----
    Senator Rubio. We are all alone here.
    Senator Udall. Okay, we are all alone.
    Senator Rubio. Well, just us and whoever is watching.
    Senator Udall. We may be rejoined----
    Senator Rubio. It is 11:10.
    Senator Udall. We may be rejoined. But let me also say 
that, you know, I supported President Obama's efforts to 
reengage with Cuba. I believe that President Trump's decision 
to walk back some of those efforts is a major mistake that only 
harms the Cuban people and isolates the United States in the 
region. Cuba has been looking to reopen and grow ties with the 
U.S. and U.S. businesses, including those in New Mexico, 
Arizona, Florida, Mississippi, and with many U.S. citizens who 
want to travel.
    In my trips to Cuba, I have taken a number of trips. The 
last one was with several members--Senator Leahy, Senator 
Cochran. This was in February 2017, so it was after this was 
already unfolding down there. I was there with Senator Leahy, 
Senator Cochran, Senator Bennet, Representative McGovern. We 
had a very good visit and visited with a number of officials, 
and stayed in hotels down there. And we--as far as we can tell 
for many of the members that went along, nothing of this sort 
happened to us.
    But I wonder why, you know, with Cuba, and there seems to 
be a huge interest on them wanting to open up and wanting to 
have the engagement with our business community, and all of 
these things. What would be their motive when the Cuban 
government was looking to increase ties with the U.S., Mr. 
Palmieri or Mr. Brown?
    Mr. Palmieri. Again, I cannot speculate on what motive the 
Cubans would have. It is just--it has happened in Havana in 
their country, a country which they generally exercise total 
security control over. It is incomprehensible to us that they 
are not aware of how and who is responsible, and that they 
cannot take steps to prevent these kinds of attacks from ever 
happening again.
    Senator Udall. Well, they have said on a number of 
occasions, on our trip down there, and the foreign minister has 
traveled here, that they did not condone the attacks in any 
way. They were not a part of them. They have no knowledge of 
them. They have been very forthright, I think, in that respect. 
The safety of our diplomats is paramount, and I found it 
interesting that many U.S. diplomats disagreed with the 
departure orders, as did their employee association, the 
American Foreign Service Association, or the AFSA, whose 
president, Barbara Stephenson, said at the time, ``AFSA's 
view,'' and this is a quote from her, ``is that America's 
diplomats need to remain on the field and in the game. We have 
a mission to do, and it is an important mission.''
    And what happened here, what the United States did was very 
different than what was done by the Canadians. Canadian 
diplomats in Havana also reported mysterious ailments, yet 
Canada has not reduced its diplomatic presence in Havana or 
expelled Cuban diplomats from Ottawa. Why has the U.S. response 
been so different than from the Canadian response?
    Mr. Palmieri. Secretary Tillerson, from his first day at 
the Department, has said that the safety, wellbeing, and 
health, and security of U.S. diplomats overseas are his top 
priority. It is mine as well. This decision to go to ordered 
departure reflects his belief and his concern and our concern 
that we had to take this step to protect our people, and that 
the Cuban government had to do more to assure us that these 
attacks would stop.
    Senator Udall. Has any other country in the world done what 
we have done and withdrawn all of their diplomats, except a 
small emergency force?
    Mr. Palmieri. In Havana?
    Senator Udall. Yes. Yes, in Havana.
    Mr. Palmieri. Not that I am aware. Not that I am aware of, 
sir.
    Senator Udall. And are you aware that any Canadian 
diplomats, since all of this has unfolded, have they had 
additional ailments or additional problems?
    Mr. Palmieri. Sir, the Canadians have withdrawn some of 
their personnel, but I think we could go into greater detail in 
the classified briefing on that element.
    Senator Udall. Thank you. We look forward to that. The 
Trump administration has reversed a variety of steps to improve 
ties made by the previous administration. What benefits have we 
achieved from these actions? How has this impacted American 
businesses as well as cuentapropistas in Cuba?
    Mr. Palmieri. I am sorry. I missed the first part of that 
question.
    Senator Udall. I said the Trump administration has reversed 
a variety of steps to improve ties made by the previous 
administration, referring to the Obama administration trying to 
improve ties, trying to open up and engage, trying to help the 
Cuban people, and we have seen a big growth in the small 
business community there in Cuba. And I am just wondering now 
that this administration has reversed all of that, what 
benefits have we achieved from these actions. Are you aware 
that the Cuban people are doing better, or how has this 
impacted American businesses as well as the cuentapropistas in 
New Mexico--in, excuse me, in Cuba?
    Mr. Palmieri. President Trump's new National Security 
Presidential Memorandum on Cuba lays out a new policy--you are 
correct, Senator--that is designed to not just help the private 
sector in Cuba, but to ensure that the Cuban government lives 
up to its international commitments on human rights, to allow 
us to promote greater freedom on behalf of the Cuban people, 
and to ensure that we are enforcing U.S. law with respect to 
the embargo and a statutory ban on tourism to Cuba. The 
measures we have taken are designed to ensure that any 
engagement and assistance, private sector assistance in Cuba 
benefits the Cuban people and not the regime.
    Senator Udall. Thank you very much, and I hope that what 
will occur here is that you will continue to share with us how 
this progresses. I mean, this is a very perplexing situation, 
and I think we should continue our investigations here in the 
Congress both in private security briefings and those kinds of 
situations. But I think we should be careful not to jump to 
conclusions until we really know what happened.
    Thank you, Mr. Chairman. I really appreciate you calling 
this hearing.
    Senator Rubio. Thank you, and if any other members appear, 
I will just kind of try to wrap up the loose ends. And I will 
take off with--right what Senator Udall said there at the end, 
and that is jumping to conclusions. That is why I thought the 
important part of this hearing is to kind of lay out the facts, 
okay? I read this headline a couple days ago. It said, FBI 
rules out sonic attacks, and saw some other things out there 
about it.
    And so, you read that and you could conclude that nothing 
happened in essence, you know. I saw at one point the Cuban 
government said that it could be crickets or some insect noise, 
cicadas? Is that what they--yeah. I did not even know there 
were cicadas. I do not know. We do not have that problem in 
Miami.
    Senator Udall. We have them in New Mexico.
    Senator Rubio. You have them?
    Senator Udall. Yep.
    Senator Rubio. A lot of concussive effects after? No?
    Senator Udall. They drive you crazy.
    Senator Rubio. All right, well, yeah.
    [Laughter.]
    Senator Rubio. But my point is that you could read that 
headline and conclude that that means that nothing happened. 
That is the method by which the attack--there has not been a 
definitive--we cannot definitively sit here today and say this 
is the machine, or this is the thing they used to cause these 
injuries, okay? And no one here has claimed that we know that.
    What I think is not in dispute is that there are 24 
Americans who either work for the U.S. government or were there 
as a dependent of a U.S. government employee, who during their 
time in Havana have experienced symptoms that are consistent 
with what you would see in mild traumatic brain injury and/or 
concussion. That is an established fact that we have talked 
about today. We may not know how they came to that point, but 
we know it happened to them, and we know it happened to 24 
people while they were working in Havana.
    Dr. Rosenfarb, let me ask you. Is there any thought given 
to the fact that this is a case of mass hysteria, that a bunch 
of people are just being hypochondriacs and making it up?
    Dr. Rosenfarb. Well, as you said, Senator, 24 people have 
had symptoms and findings consistent with what looks like a 
mild traumatic brain injury. The objective tests that were done 
were not ones that could be basically easily faked. There are 
exact findings that our experts have determined. That being 
said, you know, no etiology, no cause has been fully rolled 
out, and we are--there are doctors who are looking at 
everything. But the findings suggest that this is not an 
episode of mass hysteria.
    Senator Rubio. And so, what we know for a fact is that 24 
Americans that were in Havana on--either related to or on 
government business for a significant period of time--for a 
period of time have come back with these symptoms. That is a 
fact. So when people are there reporting about sonic attack 
ruled out, perhaps the sonic part of it has been ruled out. But 
the fact that people, if that is even true, by the way. I am 
not saying--that is just what the headline said.
    But the fact that this has happened, that people have been 
hurt, that is established fact. Does anyone on the panel 
dispute that, that people have been hurt while working in 
Havana on behalf of the U.S. government?
    [Nonverbal response.]
    Senator Rubio. Okay. So, then the second question becomes 
what is our role here in oversight. And I know we are starting 
to play some word games here, but I think this is really 
important because this is an oversight committee, okay, and our 
job is to conduct oversight over the Department of State.
    Here is what we know. I know what the law says. The law 
says in the case of any serious injury related to a U.S. 
government mission abroad, the Secretary of State shall convene 
an accountability board. It does not say in case of any 
permanent injury. It says in the case of any serious injury. 
And I know given all the attention being paid to concussions, 
as an example, because of football and other things, that 
concussions are considered serious injury. And I would say to 
anyone in the world, if I told you I am going to cause you to 
have mild traumatic brain injury, you would think that is 
serious whether it is permanent or not. That is what the law 
says.
    We know that these complaints came in by late 2016, that 
there were visits to the medical unit in late December of 2016 
and throughout 2017. We know that they were serious enough that 
by mid-February we approached the Cuban government about it. We 
know that in the early stages after this occurred, it was the 
opinion of both the leadership at the post in Havana and in the 
supporting office in Washington that this was likely some form 
of harassment by forces hostile to the United States or our 
presence in Cuba. That was the assessment made at that time.
    We know that in late April or certainly by early May, we 
had 16 people that we could identify with symptoms, and 
medically verifiable clinical findings similar to, as I said 
earlier, mild traumatic brain injury or concussion. We know 
that by September 29th, we ordered the departure of non-
emergency personnel. All these things happened, and yet we know 
that by October, certainly by November 6th of this year, an ARB 
was still not up and running.
    So, if you just do the math on the calendar, these facts 
that I just laid out extrapolated backwards should have led to 
the appointment--and I understand it was a transition, and I 
understand there was a change in the administration. But we 
should have had an accountability review board in place, or 
some notification given as to why it is no longer necessary. Of 
course, since then the decision has been made.
    And where are we, by the way, Mr. Palmieri, in the 
accountability review period? Are we now in the active--has it 
now--when was it stood up? When was the accountability review 
board activated?
    Mr. Palmieri. The Secretary took a decision to form an 
accountability review board on December 11th. I believe a 
congressional notification will arrive shortly, and that is 
required before the Board is actually constituted, Senator.
    Senator Rubio. So, on December 11th. So, okay. Well, I can 
tell you that is more than 120 days from all these facts, which 
I think leads to the argument that we should have had.
    Now, because we do not know how these attacks were 
conducted, suffice it to say--let me ask this, Dr. Rosenfarb 
and Mr. Brown, and this would never happen. But if someone in 
the U.S. government says we want to cause these symptoms in 
people, that technology does not exist. We do not know of that 
technology. Is that accurate? We are not aware of a technology 
that does this. We have never seen a technology anywhere in the 
world that does this to people.
    Mr. Brown. That is my understanding, Senator. When going to 
the subject matter experts both in government and outside 
government, we have not seen this.
    Senator Rubio. Dr. Rosenfarb, have you ever seen cases of 
this outside of an actual blow to the head or something 
similar?
    Dr. Rosenfarb. I have not.
    Senator Rubio. Okay. And that is consistent with everything 
we have been told is that--and the reason why I raise that is 
because obviously this is a pretty sophisticated thing, okay. 
This was not something conducted by, you know, a fly by night 
operation. Whatever happened to these people as a result of 
some sophisticated technology that, quite frankly, is so 
sophisticated, we do not understand it. So, it leads you then--
so you have a sophisticated attack of some sort causing these 
injuries. We do not know who possesses that sophisticated 
material, but we know that it is pretty sophisticated, leading 
you to believe it is a nation-state, someone who can afford 
this kind of thing.
    And then it leads you down the road of motivation. And I 
think it is fair to say, and I think most members of this 
committee would argue as well, and I think many of you would 
probably share this view, that whoever did this did this 
because they wanted there to be friction between the United 
States and the Cuban government. That would be the motivation 
behind this, someone who wanted to cause friction between the 
U.S. and the Cuban government, particularly if you look at the 
timing of these attacks, November, December of 2016, after the 
election.
    So, it makes you start to think who would do this. Someone 
who does not like our presence there, and someone who wants 
there to be this sort of friction between the U.S. So, who 
would be motivated to create friction, or who would not be in 
favor of an increased U.S. presence in Cuba? Well, the first 
obviously is opponents of the U.S.-Cuba opening under the Obama 
administration. I do not think any credible person on the 
planet believes that some group of anti-Castro Cubans conducted 
these attacks in an elaborate scheme to somehow disrupt the 
Obama opening, so I do not even want to spend any time on that 
unless anyone here thinks that that is a viable option. I 
assure you it is not.
    The second is a rogue element within the Cuban government 
itself. And it is interesting, I was reading this Associated 
Press report, and it talks about the initial reaction. Now, 
maybe this is not accurate, but on September 15th, the 
Associated Press reported that, ``In a rare face-to-face 
conversation, Castro told U.S. diplomat, Jerry DeLaurentis, 
that he was baffled and he was concerned, and he denied any 
responsibility. But U.S. officials were caught off guard by the 
way he addressed the matter, devoid of the indignant ``how dare 
you accuse us'' attitude the U.S. had come to expect from 
Cuba's leaders.'' It went on to say, ``His government did not 
dispute that something troubling may have gone down on Cuban 
soil.'' Now subsequently, that is not the position they have 
taken, but this is what the article reports.
    This suggests to me that potentially Castro is aware of 
rogue elements within his own government that may have been 
behind this because, whether you want to call them hard liners 
or people that feel--they just do not--they feel like they 
would be in a stronger position if this opening had not 
occurred or this increased U.S. presence, perhaps people 
concerned about an increased U.S. presence in light of the 
planned transition that theoretically is supposed to take place 
at some point this year.
    So, I am not asking you for anything classified because I 
do not think such a thing would be classified. But, Mr. 
Palmieri, at any point in time, have we ever seen reports from 
any of our diplomats in Cuba that suggest that Raul Castro or 
anyone around him has ever said to us it was not us, but it 
could have been someone within us who did this?
    Mr. Palmieri. If I----
    Senator Rubio. Has Raul Castro ever said to any U.S. 
diplomat, I did not do it, but it is possible that some of my 
guys did it without me knowing about it?
    Mr. Palmieri. I do not believe that communication has ever 
occurred.
    Senator Rubio. Is that your answer because it is--you do 
not want to discuss something that is not in the proper 
setting, or is that just your--you just have never heard it?
    Mr. Palmieri. That is my recollection, that I have never 
heard that, but we can check the diplomatic record and see if 
there was any exchange like that. I do not believe so.
    Senator Rubio. Okay. And then, the last one that was--then 
you say, well, if it was not a rogue element that was in the 
Castro government, maybe it was a third country. Which third 
country would want to disrupt the U.S. presence there, and the 
logical conclusion is Russia and Vladimir Putin. During the 
Cold War, do we have any documented cases of similar attacks 
against individuals anywhere in the world?
    Mr. Brown. I am not aware, Senator, of anything similar to 
this, no, sir.
    Dr. Rosenfarb. I believe in the late 50s and 60s, there 
were some evidence that microwave beams or radiation was 
directed against the U.S. embassy in Moscow, and I think it 
stopped in 1975, 1976.
    Senator Rubio. So, there were some microwave attacks 
against the U.S. diplomatic presence in Moscow between some 
point in the 1950s through the mid-1970s.
    Dr. Rosenfarb. Senator, I am not knowledgeable enough to 
say whether ``attacks'' or not, but I know they were 
investigating excess levels of microwave radiation that people 
may have been subjected to back in that timeframe.
    Senator Rubio. Mr. Palmieri, you were asked by, I believe, 
Senator Menendez if this had ever been raised with the Russian 
government, and your answer was you could not answer that in 
that setting. Why would a communication to a foreign 
government, unless it contained, you know, sensitive 
information, be classified? In essence, is it typical that any 
sort of communication with a foreign government, because we are 
aware that, for example, that we have addressed this with the 
Cuban government. Why would the fact or lack of existence of a 
communication to the Russian government be something that we 
cannot discuss in public?
    Mr. Palmieri. Because of the nature of an interagency 
discussion to give the context, to give you the full reply 
would be required. And I believe that would be more appropriate 
in the classified setting.
    Senator Rubio. And then I think the last point that I think 
is pretty clear here is that it is important for us not to 
ascribe to Havana attributes of New York or Washington, DC. 
Cuba, by all accounts, is by far the most heavily monitored and 
surveilled country in the Western Hemisphere. Does anyone 
disagree with that assessment?
    [No response.]
    Senator Rubio. It is a police state. Does anyone disagree 
with the assessment that the City of Havana is the most 
monitored and surveilled city within the island of Cuba?
    [No response.]
    Senator Rubio. Then let me ask you, U.S. government 
personnel. If you are an employee of the United States 
government and you are going to Havana, what level of 
monitoring or surveillance should you expect when you are 
positioned there? What do we tell our people when they go just 
outside of this context? Do they have free rein to do anything 
they want, or should they expect that they are constantly being 
watched, monitored, and closely kept tabs on? Mr. Brown, I 
think that is--probably----
    Mr. Brown. Senator, I do want to go into too much detail in 
an unclassified----
    Senator Rubio. Yeah, do not tell me the methods. I just 
want to know----
    Mr. Brown. Certainly we prepare our personnel for levels of 
surveillance and levels of harassment, and movements are 
certainly restricted. And movements are anticipated that there 
will be a Cuban element monitoring those movements.
    Senator Rubio. What other post in the world would you say 
is comparable to the level of surveillance, history of 
harassment that a U.S. government employee would find in 
Havana? What other places in the world have similar attributes?
    Mr. Brown. Senator, I think we are getting close to some 
classified areas, and I would hesitate to compare.
    Senator Rubio. I am not asking you, again, for the type of 
harassment or even the type of surveillance. But I think it 
is--so it is classified to say----
    Mr. Brown. The ranking of the level of counterintelligence 
is a classified area.
    Senator Rubio. I am not asking for the ranking. I am just 
saying who it compares to. Is it like it is in Montreal or 
Quebec?
    Mr. Brown. It is not.
    Senator Rubio. Okay. So then, the reason why I am asking 
this is because if a U.S.--I think it is safe to conclude that 
if I am a U.S. government employee working in the embassy in 
Havana, the Cuban government knows where I live and is probably 
watching me every single day. The idea that somehow someone 
could conduct an attack so sophisticated that we do not even 
know what it is without the Cuban government at least knowing 
about it to one U.S. government employee, not to mention 24 
over a 12-month period, is outside the realm of reasonable--it 
is ridiculous.
    I could understand if somebody was mugged on a street 
corner, but these are sophisticated attacks, so sophisticated, 
as I said, that we cannot even describe how it happened yet to 
24 U.S. government employees and their dependents in the most 
heavily monitored city in the most heavily monitored country in 
the Western Hemisphere, and among the most heavily monitored in 
the world, where U.S. government personnel in particular are 
watched very carefully for all of their movements and 
activities. And the idea that someone could put together some 
sort of action against them, 24 of them, and the Cuban 
government not see it or know about it, it is just not 
possible. And so, it leads you to conclude that the Cuban 
government either did this or they know who did it, and they 
cannot say because whoever did it is either a third-party 
country that they cannot take on, or elements within their own 
regime that they do not want to reveal for purposes of not 
making it appear to be unstable internally.
    And so, I think these are all good conclusions from this 
hearing that conclude by saying my admonition at the beginning. 
I think it is really unfair for any suggestion that people 
working on behalf of the U.S. government were not injured in 
Havana. Imagine if you were one of these people who are out 
there working on our behalf who are now suffering from these 
injuries, and reading in a newspaper somewhere that what 
happened to you did not happen.
    Not only is it demoralizing, I think it is incredibly 
unfair to them. We can say that we do not know how it happened. 
We can even say we cannot know for sure who did it, but two 
things we know for sure: people were hurt, and the Cuban 
government knows who did it. They just will not say for some 
reason. And I think that is the biggest takeaway from this 
hearing, other than I remain concerned about the State 
Department's unwillingness to stand up the ARB, the 
accountability review board, in a timely fashion and in 
accordance with the law. And I imagine that will be a topic of 
further discussion down the road.
    I think that will conclude my questioning. I do not--seeing 
no other members. Did you have anything else, Senator Udall?
    Senator Udall. No, thank you.
    Senator Rubio. Well, I want to thank all of you for being 
here. I know this is a unique and perplexing subject matter, 
something we have not really seen. Senator Menendez has already 
indicated, and I think some other members, Senator Flake had to 
leave. This is a topic he cares about a lot, but he had to be 
at the White House as well as Senator Menendez on an 
immigration meeting, so they had to leave. But both of them 
have indicated they are going to have extensive questions for 
the record.
    And so, we are going to keep the record open for 48 hours, 
and I would ask that their questions be answered in a timely 
fashion so that we can close out this hearing and have all that 
information. I also ask that my questions that remain 
unanswered--when was Secretary Kerry notified, when was 
President Obama notified, and whether the Trump Transition was 
briefed on this topic--also be taken back for the record. I 
think these are important questions to have answers for.
    Senator Rubio. And seeing no other members here and nothing 
further, the meeting is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Responses of Hon. Francisco L. Palmieri to Questions 
                    Submitted by Senator Marco Rubio

    Question. Was there an Accountability Review Board during the Obama 
administration? If not, why?

    Answer. By law, the Secretary of State must convene an 
Accountability Review Board (ARB) to review incidents involving 
``serious injury, loss of life, or significant destruction of property 
at, or related to, a United States government mission abroad'' unless 
``the Secretary determines that a case clearly involves only causes 
unrelated to security.'' (22 U.S.C. 4831). Our prior experiences with 
security incidents resulting in an ARB have been events in which the 
impacts were immediately clear, such as the Embassy bombings in Kenya 
and Tanzania in the late 1990s, or the explosion of a vehicle-borne 
improvised explosive device in Kabul on May 31, 2017 that killed ten 
local guard contractors.
    While the Department became of aware of an increase in some unusual 
harassment and health complaints in late December 2016, it was not 
until after the presidential transition in January 2017 that medical 
officials confirmed the onset of possibly serious related medical 
symptoms. This confirmation suggested these incidents went beyond 
routine harassment previously experienced by U.S. diplomats in Havana. 
As the number of attacks increased and we learned more about the 
medical effects, the need to consider convening an ARB became clear. By 
then, the Trump administration had taken office.

    Question. When President Obama announced the changes to Cuba policy 
on December 17, 2014, steps were taken to increase staffing levels at 
the Embassy--a structure that had been essentially closed since the 
1960s. Housing needs had to be addressed in very short order for the 
new personnel. Names were provided to the Cuban government about U.S. 
government personnel who would be stationed at Embassy Havana: What 
steps were taken when increasing personnel to ensure the safety of U.S. 
personnel? Did the Cuban government choose housing for U.S. personnel?

    Answer. As is standard practice around the world, the Regional 
Security Office (RSO) conducts briefings for all personnel (permanent, 
TDY, and dependents) regarding threats at post, physical security at 
residences, and emergency notification/response. All personnel and 
dependents are also provided security notices (when relevant), and 
security directives outlining safe practices and procedures in country. 
Under standard diplomatic practice, names of personnel are provided to 
the host nation, as it is the host nation's responsibility to ensure 
the safety of all diplomatic personnel in their country.
    The Embassy's RSO and Management Officer, in collaboration with the 
Bureaus of Diplomatic Security (DS) and Overseas Buildings Operations 
(OBO), are responsible for outlining and ensuring the implementation of 
residential security requirements are in place before staff are allowed 
to move in to any property. These entities work together to locate 
housing, assess its suitability, and acquire residences. Part of that 
process is assessing what upgrades or additional features may be 
required in order to meet Overseas Security Policy Board residential 
standards. Those upgrades are coordinated between offices at the 
Embassy, DS, and OBO. The upgrades or exceptions are in place prior to 
occupancy. This ensures that the Chief of Mission acknowledges and 
accepts any known remaining risk, and that the risk is mitigated to the 
greatest extent possible.

    Question. When were the health complaints first raised with 
Secretary Kerry?

    Answer. It was not until after the presidential transition in 
January 2017 that medical officials confirmed the onset of possibly 
serious medical symptoms stemming from the incidents in late December 
2016, which suggested these incidents went beyond routine harassment 
previously experienced by U.S. diplomats in Havana. Secretary Kerry was 
therefore not informed of the complaints.

    Question. Were the complaints shared with President Obama? If yes, 
when?

    Answer. Embassy Havana first notified staff at the National 
Security Council of increased harassment in early January 2017. We 
would refer you to the White House and NSC for more information on 
whether President Obama was made aware of these reports.

    Question. Who decided it was safe to continue to keep the Embassy 
open?

    Answer. The Department of State is constantly reviewing the safety 
and security of our embassies abroad. After considering the totality of 
the situation, on September 29, 2017, Secretary Tillerson determined 
that the circumstances necessitated the departure of non-emergency 
personnel from Embassy Havana and assessed that the reduction of staff 
and other mitigation mechanisms put into place allowed for the embassy 
to remain open to support American citizens and U.S. diplomatic 
initiatives while investigations were underway.

    Question. During the transition, were Trump administration 
officials read-in to the situation? If not, why?

    Answer. It was not until after the transition that we received 
medical confirmation of adverse medical effects on our personnel. Once 
we understood these incidents were more than harassment and were 
ongoing, we formally notified Secretary Tillerson.

    Question. As Cuba fails to meet the norms of the OAS Charter, do 
you believe that Cuba should participate in the Summit of the Americas?

    Answer. No. The Cuban regime violates the basic human rights of its 
people, and we will continue to call attention to its lack of 
democracy, repression of civil society, and other abuses, including at 
the Summit of Americas. Cuba's failures in these areas should be 
addressed, and we should hold Cuba accountable.
    As host, the Peruvian government has the prerogative to decide 
which countries to invite and it invited Cuba. We are working with Peru 
to ensure members from independent Cuban civil society have the 
opportunity to engage leaders and other civil society representatives 
from the region at the Summit, and to ensure the people of Cuba, not 
just its regime, are represented.
                               __________

         Responses of Hon. Francisco L. Palmieri to Questions 
                  Submitted by Senator Robert Menendez

    Question. You mentioned that Secretary Tillerson decided to form an 
accountability review board on December 11, but the board has not yet 
been constituted and Congress will be notified as soon as it is. Nearly 
a month later, why hasn't the board been formed yet? What is causing 
the delay? When can Congress expect the notification?

    Answer. Following the Secretary's decision to form an 
Accountability Review Board (ARB), the Department canvassed a broad 
list of individuals with the experience and skills necessary to serve 
on this ARB. Assembling the ARB took several weeks due to the Christmas 
and New Year holidays, and because the majority of individuals 
initially considered for this ARB could not serve due to scheduling 
conflicts. However, the Department has since been able to assemble an 
ARB with the right combination of skills to investigate this situation.
    The members of the Cuba ARB possess extensive leadership and 
management experience at overseas posts, medical and security 
expertise, and experience with the intelligence community. The 
Secretary has approved the ARB members, and we expect the congressional 
notification to be released soon.

    Question. During the hearing you agreed that Cuba being the police 
state that it is clearly has some knowledge of who is performing these 
attacks and that the Cuban government's public attempts to discredit 
the attacks are extremely unhelpful, yet we have not taken any 
measurable steps to demonstrate our outrage since we expelled 15 
diplomats in October. Are we planning any other retaliatory measures? 
What will our policy response be to Cuba's flagrant violation, 
abrogation, and mockery of their international obligations?

    Answer. Our response to these attacks has been robust and constant. 
We have protested these attacks against our diplomats since February 
2017 with the Cuban government and demanded the Cuban government 
fulfill its obligations under the Vienna Conventions to take 
appropriate steps to protect our diplomats in Havana. We have done so 
on more than 20 subsequent occasions. In May 2017, we expelled two 
diplomats to reflect the number of officials who, at the time, had 
departed post because of these attacks. On October 3, 2017, we expelled 
an additional 15 Cuban diplomats to underscore the gravity of these 
attacks and ensure operational equity in our embassies. We most 
recently raised these issues with Cuban government officials on the 
margins of law enforcement-related technical exchanges in mid-January 
2018.

    Question. You testified during the hearing that we engaged with the 
Cuban government over 20 times on the health attacks, but have we 
discussed the attacks with any other governments, in particular Russia? 
Please provide a classified briefing and update if you are not able to 
answer this question.

    Answer. We would be happy to address this question in a classified 
setting.

    Question. Embassy Havana went into Ordered Departure on September 
29 and it is my understanding that the Department can keep an embassy 
in that status for up to 180 days. What happens after that? If we are 
still nowhere closer to understanding how or why our diplomats are 
being attacked will we close down the embassy?

    Answer. The total length of departure status may not exceed 180 
days. Taking into account the Authorized Departure status for Hurricane 
Irma, which preceded Ordered Departure, the 180-day period ends on 
March 4, 2018. The Secretary will continue to review all available 
security information and will decide on appropriate staffing levels, 
after considering factors such as post's ability to maintain the 
safety, security, and free movement of personnel posted to Havana. At 
that point, the Department will consider appropriate actions, including 
any adjustments to the staffing posture of Embassy Havana. The 
embassy's Emergency Action Committee continues to meet regularly to 
assess the security situation under Ordered Departure status.

    Question. How many American businesses currently have licenses to 
operate in Cuba? How many American businesses were granted licenses to 
operate in Cuba after the previous administration announced new 
regulations in 2014? How many OFAC licenses were finalized or granted 
between February 2017 and November 2017?

    Answer. While we work closely with the Department of the Treasury's 
Office of Foreign Assets Control (OFAC) on licensing cases in which 
there is a U.S. foreign policy interest, we refer you to OFAC for 
details on its licenses.

    Question. As noted in the hearing, it does not appear the United 
States has taken any action to respond to the Cuban government's 
abrogation of duty? Expelling two diplomats and 15 more to achieve 
parity in Embassy operations is not a countermeasure. What steps are we 
taking?

    Answer. The safety and security of our diplomats is our top 
priority. Our response to these attacks has been robust and constant. 
We have protested these attacks against our diplomats since February 
2017 with the Cuban government and demanded the Cuban government 
fulfill its obligations under the Vienna Conventions to take all 
appropriate steps to protect our diplomats in Havana. We have done so 
on more than 20 subsequent occasions. In May 2017, we expelled two 
diplomats to reflect the number of officials who, at the time, had 
departed post because of these attacks. On October 3, 2017, we expelled 
an additional 15 Cuban diplomats to underscore the gravity of these 
attacks and ensure operational equity in our embassies. We most 
recently raised these issues with Cuban government officials on the 
margins of law enforcement-related technical exchanges in mid-January 
2018.
    We would be happy to discuss steps we are taking with regard to 
countermeasures in a classified setting.
                               __________

              Responses of Mr. Todd J. Brown to Questions 
                  Submitted by Senator Robert Menendez

    Question. It is my understanding that even after employees were 
medically evacuated from Cuba in February, the Department did not 
include the attacks or the risk of attacks in security briefings 
provided to employees who were either being posted to Havana or serving 
in temporary capacities. When exactly did the Department start 
including the potential of attacks as part of the standard security 
briefing for incoming officers? Why did it take the Department so long 
to include that information in their standard security briefing?

    Answer. All U.S. direct hire personnel traveling to Havana are 
required to receive a security brief prior to and when they arrive to 
post. The Bureau of Diplomatic Security (DS) and Embassy Havana's 
Regional Security Office (RSO) actively brief staff of security 
concerns, personal security practices, and the embassy's security 
response to threats personnel might face while in Cuba. The Embassy 
began briefing personnel about potentially new aspects of harassment 
impacting our staff as early as January 2017. As we developed more 
information on the medical impacts to our staff, our briefing 
incorporated any and all relevant threat information that could protect 
our people.

    Question. I understand that diplomats who were affected were told 
not to share their symptoms or concerns with family members. Why?

    Answer. We would be happy to address this question in a classified 
setting.

    Question. Did you activate a trip wire in Embassy Havana? Did 
Embassy Havana convene an emergency action committee in response to the 
attacks? When? How many times? If so, how did post safety policy change 
due to the tripwire and EAC meeting? If not, why not?

    Answer. Embassy Havana has convened over a dozen Emergency Action 
Committee (EAC) meetings related to these attacks, the first of which 
was held in April 2017. Post continuously assessed the available facts 
and refined its response in an effort to better understand the 
situation and protect personnel. The Embassy leadership shared 
information with the community through several town hall meetings, the 
first of which was held in March 2017. Beginning in February 2017, 
Embassy Havana's Regional Security Office regularly engaged Department 
of State security officials as well as experts within the interagency 
community to share information and seek to better understand the 
threat. Although the cause has not been identified to date, the Embassy 
continues to provide a robust briefing to personnel electing to serve 
in Havana, providing instruction on mitigation efforts and how to react 
to an event, and immediately deploying emergency security and medical 
personnel to attack scenes.
                               __________

            Responses of Dr. Charles Rosenfarb to Questions 
                  Submitted by Senator Robert Menendez

    Question. You testified that the first time the medical unit 
evaluated one of the victims was in January 2017, but the first 
reported attack was in November 2016 and the Regional Security Officer 
and Charge were made aware of the symptoms in December 2016 according 
to other testimony. Why did it take so long to provide medical 
attention to the victim? What steps exactly did the medical unit take 
to ensure that that patient was receiving the best medical care 
available? How did the medical unit decide to which medical facility to 
refer the victims and did those facilities have the capacity to treat 
brain injuries? When did you make the decision to utilize other medical 
facilities?

    Answer. I misspoke. The medical unit first evaluated one of the 
patients who noted an unusual acoustic exposure on December 30, 2016. 
The symptoms the patient experienced at the time of exposure had 
resolved by the time the individual presented to the medical unit. 
Those initial symptoms described by the patient were vague and could be 
attributed to numerous causes. When at least one additional patient 
reporting a similar history to the first patient presented to the 
medical unit in January, it was determined that further evaluations 
were needed. The medical unit in Havana then authorized the affected 
individuals to undergo government-funded evaluations by a highly 
qualified specialist in injuries to the acoustic system at the 
University of Miami.
    Both Embassy leadership and the medical provider at Embassy Havana 
continually encouraged mission personnel to report anything unusual to 
the medical unit and to the Regional Security Officer, whether it was 
an unusual sound or sensation or unexplained symptoms. All individuals 
in the Embassy community who reported symptoms at any time received 
medical attention as soon as they reported to the Embassy medical unit, 
all individuals who desired specialist evaluation, whether or not they 
had reported symptoms, were medevaced to Miami for assessment, and a 
screening of the general Embassy community was conducted by medical 
experts including from the University of Miami.
    After the initial cohort of patients was identified by our 
University of Miami medical experts, we selected a nationally-known 
center of excellence in brain injury and repair, convenient to the 
Washington metropolitan area, that could fully accommodate all future 
patient referrals, provide the required full spectrum of rehabilitative 
services to those affected, and serve as a resource on ancillary 
occupational health matters that would enable the patients' ability to 
return to work.

    Question. You testified that none of the victims were paying for 
any medical bills, but conceded that there were some limitations to the 
medical treatment that would be covered by workers compensation. In 
particular, you noted that family members (some of whom are victims) 
would not be eligible for workers compensation, what other coverage 
limitations exist? Is the State Department also covering other 
associated expenses like travel to and from the medical facilities?

    Answer. I would defer to my colleagues in the Department of Labor 
to address coverage limitations of workers compensation. While existing 
authorities permit the Department of State (Department) to pay for the 
treatment cost for illnesses, injuries, or medical conditions incurred 
while assigned to a post abroad for eligible government employees and 
their families, current policies may limit coverage of expenses for 
long-term follow-up evaluations and later treatment. The Department is 
covering the cost of travel to and from medical facilities for its 
employees and affected family members who are on medical evacuation, 
including some travel that had not traditionally been covered under the 
Department's medical program.

    Question. Given the life-altering implications of these attacks, 
will the Department provide life-time coverage for related health 
concerns? Even if employees leave the Department?

    Answer. At this time we do not know the long-term implications of 
these patients' symptoms and clinical findings given the unknown 
mechanism of cause. We do know that people with head injuries sometimes 
experience long term sequelae. The Department has not typically funded 
long term care or medical follow-up for current or former personnel for 
work-related illnesses or injuries when workers compensation benefits 
are an available remedy. However, this is an unusual circumstance, and 
we are working to ensure that our people receive the care they need for 
as long as is necessary. Caring for our personnel remains our highest 
priority.
                               __________

         Responses of Hon. Francisco L. Palmieri to Questions 
                    Submitted by Senator Jeff Flake

    Question. There seems to be some confusion as to what, exactly, 
caused the incidents that have impacted U.S. diplomats as well as 
reportedly diplomats associated with the Canada. Those affected have 
spoken about hearing some kind of sound. Do U.S. investigators know 
whether this reported sound was natural or mechanical?

    Answer. The exact mechanism responsible for the reported injuries 
caused to U.S. and Canadian diplomatic personnel remains unknown.

    Question. What has been the nature of U.S. contacts with Cuban 
officials regarding this matter?

    Answer. The Department has raised this issue on more than 20 
occasions with Cuban officials from the highest level to the working 
level. Department officials most recently reminded the Cubans of their 
obligation under the Vienna Convention to take adequate steps to 
protect our diplomats on the margins of law enforcement-related 
technical exchanges in mid-January 2018.

    Question. How have Cuba and the U.S. worked together to further the 
investigation into what impacted American personnel?

    Answer. The United States is conducting a thorough, ongoing 
investigation into the specifics of these attacks. The Cubans have 
facilitated the travel of U.S. investigators to the island on four 
occasions and provided access to the hotels where attacks occurred. The 
Cubans also provided U.S. investigators with the results of an ongoing 
Cuban investigation into the attacks. However, the Cubans have failed 
to resolve the case or to provide a guarantee regarding the safety of 
our personnel.

    Question. Cuba has proposed a greater exchange of medical 
information with the U.S. and a direct meeting of Cuban and U.S. 
medical experts. What is the status of this proposal? What are the 
benefits of such a potential meeting? What are the risks?

    Answer. We are still trying to understand this complicated medical 
issue. Our patients have received comprehensive medical evaluations and 
treatment by leading American medical experts in the field. In late 
April 2017, a medical summary that described the early health effects, 
including symptoms and findings, was provided to the Ministry of 
Foreign Affairs by the U.S. Embassy. Similar information was shared 
with Ministry of the Interior officials during a May 2017 meeting with 
the Embassy medical practitioner and the RSO. In early June 2017, the 
Embassy provided a formal response to a Cuban Diplomatic Note that had 
requested additional information regarding the medical examination of 
victims of the attacks.
    While a potential meeting with Cuban public health officials could 
yield information regarding similar health issues noted outside the 
diplomatic community, greater sharing of medical findings with the 
Cuban government would carry significant risks. The medical privacy of 
our personnel could be compromised, and information might 
unintentionally emerge that could potentially benefit the still-
unidentified perpetrators of these attacks.

    Question. Press reports indicate that the FBI has found no evidence 
to support the conjecture of impacts to American personnel being caused 
by ``an attack.'' Is the use of the term ``attacks,'' even without 
proof or conjecture to substantiate the use of this term, an attempt to 
draw attention to Cuba's responsibilities under Article 29 of the 
Vienna Convention?

    Answer. We would refer any questions regarding the status of the 
investigation to the FBI. In light of the harm to affected individuals, 
the State Department considers these incidents to be attacks against 
our personnel. Accordingly, we have continued to press the Cuban 
government to fulfill its obligations under Article 29 of the Vienna 
Conventions to take all appropriate steps to protect accredited foreign 
diplomats in its territory. It is the Cuban government's responsibility 
to ensure these attacks come to an end.

    Question. The Cuban government claims that it was informed of a 
March 30 incident on April 25; a one month delay. On April 6, Cuban 
authorities indicate they were informed of an incident that occurred 
the night before but were allegedly denied access to the premise. How 
are the State Department and other related investigative agencies 
coordinating to ensure these kinds of mishaps do not take place?

    Answer. Post and the Department pass all relevant information 
immediately to the Cuban government as soon as it is reported or 
confirmed through medical diagnosis. Any delays in notifications were 
based on timeliness of reporting by employees and medical confirmation, 
which often came well after the initial incident took place. Embassy 
Havana's Regional Security Officer (RSO) and Front Office reinforced 
with employees the need to report incidents immediately. In cases when 
this happened, Cubans authorities promptly responded with the RSO to 
the location of the incident.
    In regards to the April 6 event, the Embassy RSO and Front Office 
contacted the Cuban authorities immediately after being notified of a 
possible event at one of our properties. Cuban authorities responded to 
the location in question with 30 people to the attack site, all were 
allowed access to the property. The Cubans then conducted a search of 
the property, to include a video recording of their inspection.

    Question. Cuba is on the verge of what could arguably be the most 
influential leadership transition in a generation. Given our 
restriction on personnel related to the ordered departure, what are the 
embassy's current capabilities to monitor and assess political 
conditions on the island?

    Answer. On September 29, 2017, the Secretary determined the risks 
associated with the health attacks required a change in U.S. Embassy 
Havana's operating status to Ordered Departure (OD). Among the 
emergency personnel who remain in Havana is a political-economic 
officer whose duties include monitoring and assessing Cuba's political 
conditions. While we recognize the change in status to OD necessarily 
limits our capacity to monitor political conditions, the safety and 
security of our people is the overriding priority of the Secretary. It 
is mine, as well.

    Question. What are the embassy's current capabilities to monitor 
and assess economic conditions on the island?

    Answer. On September 29, 2017, the Secretary determined the risks 
associated with the health attacks required a change in U.S. Embassy 
Havana's operating status to Ordered Departure (OD). Among the 
emergency personnel who remain in Havana is a political-economic 
officer whose duties include monitoring and assessing Cuba's economic 
conditions. While we recognize the change in status to OD necessarily 
limits our capacity to monitor economic conditions, the safety and 
security of our people is the overriding priority of the Secretary. It 
is mine, as well.

    Question. Without divulging sources, methods, or current asset, 
what is the U.S. government's current capacity to monitor and assess 
intelligence-related issues on the island?

    Answer. We would be happy to discuss this in a classified setting.

    Question. In your oral testimony, you indicated that after the 
incidents that have impacted U.S. diplomats came to light embassy 
personnel were given the opportunity to leave Embassy Havana 
voluntarily. Were there embassy personnel that opted to stay in Havana?

    Answer. Yes, most employees opted to continue working to promote 
U.S. interests in Havana after learning about these attacks. Six 
embassy officers affected by the incidents left post prior to ordered 
departure. Regardless of whether they chose to remain or depart, 
Department employees are dedicated to serving the country and promoting 
U.S. foreign policy abroad, even in difficult circumstances.

    In your written testimony, you indicated ``[t]hese decisions--both 
to draw down our personnel at Embassy Havana and to expel Cuba 
diplomats did not signal a change in policy.'' While purportedly not a 
policy change, the reduction in staff is having an impact on basic 
embassy functions that are fundamental to a bilateral relationship. 
Along those lines:

    Question. How many non-immigrant and immigrant visa interviews were 
conducted each month since the drawdown and monthly in the year prior 
to the drawdown?

    Answer. Beginning September 29, 2017, the U.S. Embassy in Havana 
suspended most routine visa services due to the ordered departure of 
non-emergency personnel. Immigrant visas for Cubans are processed at 
the U.S. Embassy in Bogota, Colombia. The only nonimmigrant visa 
applications the U.S. embassy in Havana is able to process are those 
for diplomatic or official (category A or G) visas or extremely rare 
emergency cases when the applicant has a life-threatening condition 
requiring treatment in the United States.
    Since the drawdown in staff, Embassy Havana has processed the 
following number of nonimmigrant (NIV) and immigrant visa (IV) 
applications by month. The second chart contains statistics for the 
previous 12 months.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Question. What is the current average wait time for non-immigrant 
and immigrant visa interviews? What is the average wait time each month 
in the year prior to the drawdown?

    Answer. Due to the unique circumstances of each immigrant visa (IV) 
case, the Department does not track average wait times for these visas. 
The Department is no longer tracking non-immigrant visa (NIV) wait 
times at Embassy Havana because of the change in operating status. In 
the year preceding the drawdown, the last reported wait times for NIVs 
in Havana for each month were as follows: October 2016-117 days, 
November 2016-124 days, December 2016-98 days, January 2017-97 days, 
February 2017-98 days, March 2017-99 days, April 2017-113 days, May 
2017-123 days, June 2017-76 days, July 2017-70 days, August 2017-61 
days, September 2017-83 days.

    Question. How many cases are currently pending in 221(g) status? 
How many were pending in 221(g) status each month in the year prior to 
the drawdown?

    Answer. Embassy Bogota has issued 669 immigrant visas to 
individuals whose cases were originally refused under INA 221(g) in 
Embassy Havana at the time of the drawdown in services. Embassy Havana 
is in the process of transferring the remaining cases originally 
refused under INA 221(g) to Embassy Bogota for processing. There are 
currently 89 NIV cases at U.S. Embassy Havana that are refused under 
INA 221(g). Embassy Havana will continue processing those NIV cases as 
appropriate.

    Question. How many non-immigrant and immigrant visas have been 
issued on a monthly basis since the drawdown and were issued each month 
in the year prior to the drawdown?

    Answer. Since the drawdown in staff, Embassy Havana has issued the 
following number of nonimmigrant and immigrant visa applications by 
month.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Question. In what instances have immigrant and non-immigrant visa 
application processing been referred to a third country?

    Answer. Cuban applicants for nonimmigrant visas may apply at any 
U.S. embassy or consulate overseas, but must be physically present in 
the country at the time of the application. We have begun transferring 
immigrant visa applications and scheduling immigrant visa interviews 
for Cuban nationals at the U.S. Embassy in Bogota, Colombia.

    Question. It is my understanding that the current status of ordered 
withdrawal for Embassy Havana will come to an end in early March. What 
factors will be considered when deciding the subsequent condition and 
staffing levels of the embassy in post-order withdrawal status?

    Answer. The total length of departure status may not exceed 180 
days. Taking into account the Authorized Departure status for Hurricane 
Irma, which preceded Ordered Departure, the 180-day period ends on 
March 4, 2018. The Secretary will continue to review all available 
security information and will make that determination at the 
appropriate time, after considering factors such as post's ability to 
maintain the safety, security, and free movement of personnel posted to 
Havana. At that point, the Department will consider appropriate 
actions, including any adjustments to the staffing posture of Embassy 
Havana. The embassy's Emergency Action Committee continues to meet 
regularly to assess the security situation under Ordered Departure 
status.

    Question. It is my understanding that the expulsion of Cuban 
diplomats in order to match staff reductions at Embassy Havana involved 
the expulsion of specifically selected and named staff members at the 
Cuban embassy. Is it the usual practice in matching staffing levels to 
delineate specific members of the foreign embassy staff for removal 
versus selecting a target staffing level?

    Answer. On May 23, 2017, the Secretary of State made the decision 
to expel two diplomats assigned to the Cuban Embassy in Washington, DC. 
On October 3, 2017, the Secretary of State expelled an additional 15 
Cuban diplomats. This was done to underscore Cuba's responsibility to 
protect our diplomats in Havana and the gravity of the situation, as 
well as to ensure equity in the impact on operations of our respective 
missions. The specific circumstances of this situation led the 
Secretary to determine this approach as the most appropriate course of 
action. We would be happy to provide further information in a 
classified setting.
                               __________

              Responses of Mr. Todd J. Brown to Questions 
                    Submitted by Senator Jeff Flake

    Question. There seems to be some confusion as to what, exactly, 
caused the incidents that have impacted U.S. diplomats as well as 
reportedly diplomats associated with the Canada. Those affected have 
spoken about hearing some kind of sound. Do U.S. investigators know 
whether this reported sound was natural or mechanical?

    Answer. The exact mechanism responsible for the reported injuries 
caused to U.S. and Canadian diplomatic personnel remains unknown.

    Question. What has been the nature of U.S. contacts with Cuban 
officials regarding this matter?

    Answer. The Department has raised this issue on more than 20 
occasions with Cuban officials from the highest level to the working 
level. Department officials most recently reminded the Cubans of their 
obligation under the Vienna Convention to take adequate steps to 
protect our diplomats on the margins of law enforcement-related 
technical exchanges in mid-January 2018.

    Question. How have Cuba and the U.S. worked together to further the 
investigation into what impacted American personnel?

    Answer. The United States is conducting a thorough, ongoing 
investigation into the specifics of these attacks. The Cubans have 
facilitated the travel of U.S. investigators to the island on four 
occasions and provided access to the hotels where attacks occurred. The 
Cubans also provided U.S. investigators with the results of an ongoing 
Cuban investigation into the attacks. However, the Cubans have failed 
to resolve the case or to provide a guarantee regarding the safety of 
our personnel.

    Question. Cuba has proposed a greater exchange of medical 
information with the U.S. and a direct meeting of Cuban and U.S. 
medical experts. What is the status of this proposal? What are the 
benefits of such a potential meeting? What are the risks?

    Answer. We are still trying to understand this complicated medical 
issue. Our patients have received comprehensive medical evaluations and 
treatment by leading American medical experts in the field. In late 
April 2017, a medical summary that described the early health effects, 
including symptoms and findings, was provided to the Ministry of 
Foreign Affairs by the U.S. Embassy. Similar information was shared 
with Ministry of the Interior officials during a May 2017 meeting with 
the Embassy medical practitioner and the RSO. In early June 2017, the 
Embassy provided a formal response to a Cuban Diplomatic Note that had 
requested additional information regarding the medical examination of 
victims of the attacks.
    While a potential meeting with Cuban public health officials could 
yield information regarding similar health issues noted outside the 
diplomatic community, greater sharing of medical findings with the 
Cuban government would carry significant risks. The medical privacy of 
our personnel could be compromised, and information might 
unintentionally emerge that could potentially benefit the still-
unidentified perpetrators of these attacks.

    Question. Press reports indicate that the FBI has found no evidence 
to support the conjecture of impacts to American personnel being caused 
by ``an attack.'' Is the use of the term ``attacks,'' even without 
proof or conjecture to substantiate the use of this term, an attempt to 
draw attention to Cuba's responsibilities under Article 29 of the 
Vienna Convention?

    Answer. We would refer any questions regarding the status of the 
investigation to the FBI. In light of the harm to affected individuals, 
the State Department considers these incidents to be attacks against 
our personnel. Accordingly, we have continued to press the Cuban 
government to fulfill its obligations under Article 29 of the Vienna 
Conventions to take all appropriate steps to protect accredited foreign 
diplomats in its territory. It is the Cuban government's responsibility 
to ensure these attacks come to an end.

    Question. The Cuban government claims that it was informed of a 
March 30 incident on April 25; a one month delay. On April 6, Cuban 
authorities indicate they were informed of an incident that occurred 
the night before but were allegedly denied access to the premise. How 
are the State Department and other related investigative agencies 
coordinating to ensure these kinds of mishaps do not take place?

    Answer. Post and the Department pass all relevant information 
immediately to the Cuban government as soon as it is reported or 
confirmed through medical diagnosis. Any delays in notifications were 
based on timeliness of reporting by employees and medical confirmation, 
which often came well after the initial incident took place. Embassy 
Havana's Regional Security Officer (RSO) and Front Office reinforced 
with employees the need to report incidents immediately. In cases when 
this happened, Cubans authorities promptly responded with the RSO to 
the location of the incident.
    In regards to the April 6 event, the Embassy RSO and Front Office 
contacted the Cuban authorities immediately after being notified of a 
possible event at one of our properties. Cuban authorities responded to 
the location in question with 30 people to the attack site, all were 
allowed access to the property. The Cubans then conducted a search of 
the property, to include a video recording of their inspection.

    Question. In response to questions, you said you were not aware of 
Cuba's investigative efforts. Why would the Diplomatic Security Bureau 
be uninformed about information developed by Cuba?

    Answer. The Department of State engaged the Cubans on several 
occasions during the course of these events, stressing the importance 
of honoring their commitments to protect all diplomats living and 
working in their country. To date, the FBI, with DS' cooperation, has 
had significant access to sites and locations within Cuba, and has been 
leading the U.S. investigation. The Cuban government has been 
conducting their own investigation of the events and DS defers to the 
FBI for updates on their relationship with Cuba's investigation. As of 
now, the Cuban government has relayed their continued inability to 
identify a responsible actor/s or mechanism of injury.
                               __________

            Responses of Dr. Charles Rosenfarb to Questions 
                    Submitted by Senator Jeff Flake

    Question. There seems to be some confusion as to what, exactly, 
caused the incidents that have impacted U.S. diplomats as well as 
reportedly diplomats associated with the Canada. Those affected have 
spoken about hearing some kind of sound. Do U.S. investigators know 
whether this reported sound was natural or mechanical?

    Answer. The exact mechanism responsible for the reported injuries 
caused to U.S. and Canadian diplomatic personnel remains unknown.

    Question. What has been the nature of U.S. contacts with Cuban 
officials regarding this matter?

    Answer. The Department has raised this issue on more than 20 
occasions with Cuban officials from the highest level to the working 
level. Department officials most recently reminded the Cubans of their 
obligation under the Vienna Convention to take adequate steps to 
protect our diplomats on the margins of law enforcement-related 
technical exchanges in mid-January 2018.

    Question. How have Cuba and the U.S. worked together to further the 
investigation into what impacted American personnel?

    Answer. The United States is conducting a thorough, ongoing 
investigation into the specifics of these attacks. The Cubans have 
facilitated the travel of U.S. investigators to the island on four 
occasions and provided access to the hotels where attacks occurred. The 
Cubans also provided U.S. investigators with the results of an ongoing 
Cuban investigation into the attacks. However, the Cubans have failed 
to resolve the case or to provide a guarantee regarding the safety of 
our personnel.

    Question. Cuba has proposed a greater exchange of medical 
information with the U.S. and a direct meeting of Cuban and U.S. 
medical experts. What is the status of this proposal? What are the 
benefits of such a potential meeting? What are the risks?

    Answer. We are still trying to understand this complicated medical 
issue. Our patients have received comprehensive medical evaluations and 
treatment by leading American medical experts in the field. In late 
April 2017, a medical summary that described the early health effects, 
including symptoms and findings, was provided to the Ministry of 
Foreign Affairs by the U.S. Embassy. Similar information was shared 
with Ministry of the Interior officials during a May 2017 meeting with 
the Embassy medical practitioner and the RSO. In early June 2017, the 
Embassy provided a formal response to a Cuban Diplomatic Note that had 
requested additional information regarding the medical examination of 
victims of the attacks.
    While a potential meeting with Cuban public health officials could 
yield information regarding similar health issues noted outside the 
diplomatic community, greater sharing of medical findings with the 
Cuban government would carry significant risks. The medical privacy of 
our personnel could be compromised, and information might 
unintentionally emerge that could potentially benefit the still-
unidentified perpetrators of these attacks.

    Question. Press reports indicate that the FBI has found no evidence 
to support the conjecture of impacts to American personnel being caused 
by ``an attack.'' Is the use of the term ``attacks,'' even without 
proof or conjecture to substantiate the use of this term, an attempt to 
draw attention to Cuba's responsibilities under Article 29 of the 
Vienna Convention?

    Answer. We would refer any questions regarding the status of the 
investigation to the FBI. In light of the harm to affected individuals, 
the State Department considers these incidents to be attacks against 
our personnel. Accordingly, we have continued to press the Cuban 
government to fulfill its obligations under Article 29 of the Vienna 
Conventions to take all appropriate steps to protect accredited foreign 
diplomats in its territory. It is the Cuban government's responsibility 
to ensure these attacks come to an end.

    Question. The Cuban government claims that it was informed of a 
March 30 incident on April 25; a one month delay. On April 6, Cuban 
authorities indicate they were informed of an incident that occurred 
the night before but were allegedly denied access to the premise. How 
are the State Department and other related investigative agencies 
coordinating to ensure these kinds of mishaps do not take place?

    Answer. Post and the Department pass all relevant information 
immediately to the Cuban government as soon as it is reported or 
confirmed through medical diagnosis. Any delays in notifications were 
based on timeliness of reporting by employees and medical confirmation, 
which often came well after the initial incident took place. Embassy 
Havana's Regional Security Officer (RSO) and Front Office reinforced 
with employees the need to report incidents immediately. In cases when 
this happened, Cubans authorities promptly responded with the RSO to 
the location of the incident.
    In regards to the April 6 event, the Embassy RSO and Front Office 
contacted the Cuban authorities immediately after being notified of a 
possible event at one of our properties. Cuban authorities responded to 
the location in question with 30 people to the attack site, all were 
allowed access to the property. The Cubans then conducted a search of 
the property, to include a video recording of their inspection.

                                  [all]
</pre></body></html>
